OFFICE OF INSPECTOR GENERAL




                              Semiannual Report
                              to Congress

                              APRIL 1, 2010 — SEPTEMBER 30, 2010




                                                                   DOE/IG-0059
SEMIANNUAL REPORT TO CONGRESS




                           Table of Contents
   Message from the Inspector General................................................................ 1

   Key Accomplishments........................................................................................ 3

   Implementation of the American Recovery and
      Reinvestment Act of 2009 .......................................................................... 5

   Other Significant Audits, Inspections, and Reviews.........................................17

   Investigative Outcomes.................................................................................... 29

   Positive Outcomes............................................................................................ 37
       Highlights Based on Office of Inspector General Work . ...............................37
       Congressional Responses ................................................................................39
       Legislative and Regulatory Review ..................................................................39
       Hotline System...................................................................................................40
       Management Referral System .........................................................................40
       Qui Tams ........................................................................................................... 41

   Appendix 1 – Reports...................................................................................... 43
      Recovery Act Reports Issued............................................................................43
      Other Audit Reports Issued . ...........................................................................46
      Inspection Reports Issued................................................................................49

   Appendix 2 – Tables..........................................................................................51
      OIG Issued Audit Reports with Recommendations for Better
         Use of Funds................................................................................................. 51
      OIG Issued Audit and Inspection Reports with Questioned Costs................52
      Reports Lacking Management Decision..........................................................53
      Prior Significant Recommendations Not Implemented...................................53
      Summary of Inspections and Special Inquiries Activities................................54
      Summary of Inspections and Special Inquiries
         Recovery Act Section 1553 Retaliation Complaints....................................55
      Summary of Investigative Activities..................................................................56
      Peer Reviews......................................................................................................57


                                                    APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                                                                 iii
SEMIANNUAL REPORT TO CONGRESS




                             THIS PAGE INTENTIONALLY LEFT BLANK




        Department of Energy – Office of Inspector General
 iv
SEMIANNUAL REPORT TO CONGRESS




                       Message
                       from the Inspector General

                                        The Department of Energy’s Office of Inspector
                                        General is pleased to submit its Semiannual Report to
                                        Congress for the period ending September 30, 2010.
                                        This report highlights key accomplishments of the
                                        Office, particularly pertaining to our efforts to work
                                        with agency management to ensure the economy,
                                        efficiency, and effectiveness of Department of Energy
                                        operations.
                                             During this reporting period, much of our focus
                                        centered on the Department’s implementation of the
                                        American Recovery and Reinvestment Act (Recovery
   Act) of 2009. Under the Recovery Act, the Department of Energy received $36.7 billion
   for various science, energy and environmental programs and initiatives. As a result,
   the Office of Inspector General has issued a number of reports associated with the
   Department’s implementation and execution of its Recovery Act responsibilities, which
   are summarized in the body of this document.
       In addition to our Recovery Act-related work, the Office of Inspector General
   continues its efforts in other vital Department sectors, including areas such as
   environmental remediation, stockpile stewardship, worker and community safety, cyber
   security and various aspects of contract and program management. This Semiannual
   Report describes many of our activities in these and related areas.
       We look forward to working with the Department’s senior management and program
   officials in our mutual effort to ensure that the interests of U.S. taxpayers are a priority as
   the Department of Energy undertakes its critically important mission.


       						
       							
       							                                             Gregory H. Friedman
       							                                             Inspector General




                                          APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                                     1
SEMIANNUAL REPORT TO CONGRESS




                             THIS PAGE INTENTIONALLY LEFT BLANK




        Department of Energy – Office of Inspector General
 2
SEMIANNUAL REPORT TO CONGRESS



                    Key Accomplishments
  	                 For the Period of April 1, 2010 – September 30, 2010



  Reports Issued:
    Recovery Act Audit Reports                                              20
    Other Audit Reports                                                     28
    Inspection Reports (includes non-public reports)                         6


  Dollars Put to Better Use                                       $28.7 million

  Questioned Costs                                               $186.4 million

  Hotline Complaints and Inquiries                                       1,137

  Recovery Act Retaliation Complaints                                       10


  Criminal Convictions                                                       9

  Suspensions/Debarments                                                     8

  Civil/Administrative Actions Taken                                        50

  Open Qui Tam Investigations                                               15

  Potential Recoveries from Qui Tams                             $466.5 million


  Dollars Recovered (Fines/Settlements/Recoveries)               $195.2 million




                                    APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                  3
SEMIANNUAL REPORT TO CONGRESS




                             THIS PAGE INTENTIONALLY LEFT BLANK




        Department of Energy – Office of Inspector General
 4
SEMIANNUAL REPORT TO CONGRESS




                      Implementation of the Ameri-
                      can Recovery and Reinvest-
                      ment Act of 2009

   REPORTS                                           ➤➤   Spent $269.7 million for energy
                                                          efficiency activities and/or projects.
                                                          That was significantly less than
   The Department of Energy’s                             the $675 million anticipated in
   Implementation of the Energy                           the Department’s initial Project
   Efficiency and Conservation Block                      Operating Plans. Three of the U.S.
   Grant Program under the American                       territories had not spent any grant
   Recovery and Reinvestment Act: A                       money at all, even though funding
   Status Report                                          had been awarded and was available
                                                          for use; and,
   The Recovery Act provided $3.2 billion for
   the Energy Efficiency and Conservation            ➤➤   Reported in their Second Quarter
   Block Grant Program (Program) which                    2010 filing that grant money had
   provides funding for projects that improve             resulted in creating or saving 2,265
   energy efficiency and reduce energy use                jobs, or about 1 job per grant award.
   and fossil fuel emissions. The Department
   of Energy (Department) distributed about           In spite of recent actions by the
   $2.7 billion authorized for the Program to     Department and grantees to overcome
   State Energy Offices and U.S. territories;     impediments associated with the
   cities and counties; and, Indian tribes. The   establishment of a new program, the slow
   balance of the funding was directed to         rate of spending Program funds had not
   competitive grant awards and technical         met initial Departmental targets. To their
   assistance activities.                         credit, both the Department and grant
        Our review of Department data             recipients had taken a number of positive
   disclosed that as of August 2010, grant        actions to implement the Program.
   recipients had expended only about 8.4             We believe that our findings in this area
   percent of the $3.2 billion authorized         suggest lessons learned and best practices
   for the Program. Specifically, the grant       which will prove useful in implementing
   recipients, as of August 2010, had:            similar grant programs in the future or




                                        APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                               5
SEMIANNUAL REPORT TO CONGRESS


  in continuing this Program should it be          but of that amount, only about 7.2 percent
  reauthorized. Management fundamentally           had actually been expended. We also found
  disagreed with the report’s conclusion that      that the Department experienced issues and
  the Program had not achieved its economic        challenges with preparing projected and
  stimulus and job creation goals. Specifically,   reported energy savings for the SEP and, due
  management stated that obligations by            to insufficient staffing, the Department had
  the grant recipients are a better measure        not monitored State activities as required.
  of the Program’s economic impact than                Management officials partially concurred
  spending since the obligation of funds shows     with our audit results, asserting that
  that the recipients have contracts in place      obligations are a better indicator of program
  upon which contractors based their hiring        success under the Recovery Act than
  decisions. (OAS-RA-10-16)                        expenditures. EERE management added
                                                   that they have undertaken several actions to
                                                   accelerate project implementation including
  The Department’s State Energy
                                                   the development of new tools; guidance and
  Program Formula Grants Awarded
                                                   training; dedication of Federal resources to
  under the Recovery Act
                                                   environmental review requirements; and,
  Under the Recovery Act, the Office               implementation of a robust State monitoring
  of Energy Efficiency and Renewable               plan. (OAS-RA-10-17)
  Energy (EERE) received $3.1 billion to
  be distributed through the State Energy
                                                   The Department ’s Program to Assist
  Program (SEP) to stimulate the economy by
                                                   Federal Buyers in the Purchasing of
  creating and preserving jobs while increasing
                                                   Energy Efficient Products
  energy efficiency and the use of renewable
  energy. In response to an EERE solicitation,     The Department’s Federal Energy
  the 50 states, 5 territories, and the District   Management Program (FEMP) helps
  of Columbia prepared plans summarizing           Federal agencies achieve energy efficiency
  energy related programs and projects             and conservation goals by developing and
  planned for the SEP Recovery Act Funds.          publishing energy efficiency specifications.
  After reviewing those plans, EERE awarded        Our audit disclosed that the Department had
  funding to states for approved projects          not adequately pursued these goals and that
  consistent with the goals of the program.        FEMP:
      Our audit revealed that the Department
  had taken a reasonable, risk-based approach          ➤➤   Had not always maintained up-to-
  to the award and management of SEP                        date energy efficiency specifications.
  grants. However, compliance with various                  For some products, FEMP had not
  regulatory requirements had slowed                        updated its specifications for as long
  spending. As of July 9, 2010, 74 percent                  as nine years despite well-known,
  of the $3.1 billion in SEP Recovery Act                   demonstrated efficiency gains in the
  funding had been approved for spending,                   intervening period;




          Department of Energy – Office of Inspector General
 6
    ➤➤   Could not demonstrate that                  Our audit identified problems with
         it had adequately pursued the           the allocation of funds to territories and
         development of new energy efficiency    updating Federal regulations to reflect
         specifications; and,                    grant formulas. We also found that the
                                                 Department had not modified the Code of
    ➤➤   Had not effectively managed relevant    Federal Regulations (CFR) to reflect updated
         contractor efforts essential to the     Energy Information Administration (EIA)
         program.                                data. As a result of not updating the formula
                                                 and not providing notice to grantees of the
    Given FEMP’s responsibility to assist        basis for funding decisions, the Department’s
Federal buyers in procuring the most             ability to maintain transparency under the
energy efficient products, the $10 billion       Recovery Act was compromised.
in government expenditures each year                 We recommended that the Department
on energy consuming products, and the            review the basis for allocating Recovery Act
national imperative to reduce energy             funding to the territories to determine if
demand, we concluded that FEMP needs             adjustments are warranted and revise the
to be adequately resourced and effectively       Weatherization grant allocation formula in
managed to meet these challenges.                the CFR to reflect current EIA data. The
    Management agreed with the audit             Department provided a response to our
findings and recommendations and agreed          report that included planned actions to
to implement corrective actions that, if         address our recommendations.
successfully implemented, should improve         (OAS-RA-10-13)
the Department’s ability to provide up-to-
date product energy efficiency information
                                                 The Department’s Recovery Act –
to the Federal procurement community.
                                                 State Energy Programs
(OAS-RA-10-08)
                                                 The Department’s EERE provides grants to
                                                 the 50 states, 5 territories and the District of
The Department’s Use of the
                                                 Columbia to support their energy priorities
Weatherization Assistance Program
                                                 through the SEP. As part of the Office
Formula for Allocating Funds
                                                 of Inspector General’s (OIG) strategy for
under the American Recovery and
                                                 reviewing the Department’s implementation
Reinvestment Act
                                                 of the Recovery Act, we initiated a series
The Department’s EERE manages the                of reviews of SEPs to determine whether
Weatherization Program with support from         the following states had internal controls in
field offices. Through these offices, the        place to efficiently and effectively administer
Department awarded, based on an allocation       Recovery Act funds provided for its SEP
formula, weatherization funding to all 50        program:
states, the 5 territories, and the District of
Columbia.




                                         APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                                7
SEMIANNUAL REPORT TO CONGRESS


  Georgia                                          Louisiana
  The State of Georgia received $82.5              Our review identified certain risks associated
  million in SEP Recovery Act funds; a 78-         with Louisiana’s SEP strategy that could
  fold increase over its FY 2009 SEP grant         impact the State’s ability to meet the program
  of approximately $1.1 million. Georgia’s         and Recovery Act goals. Specifically, the
  SEP is managed by the Energy Division            State had not:
  of the Georgia Environmental Facilities
  Authority (GEFA). Our audit revealed that            ➤➤   Established controls to prevent
  GEFA was substantially in compliance with                 double payments for Recovery
  major Recovery Act requirements for SEP                   Act energy conservation rebates
  projects. For example, we found that GEFA                 to individuals who may have been
  had established a SEP funding strategy,                   approved or received payment under
  was generally in compliance with Recovery                 an existing State rebate program;
  Act reporting guidelines, had segregated
  Recovery Act costs and had ensured that              ➤➤   Developed contingency plans to
  Recovery Act requirements were included                   replace projects in the event that
  in subcontracts. In addition, we determined               they do not receive timely National
  that GEFA had established technical and                   Environmental Policy Act approval
  fiscal monitoring plans for its SEP Recovery              to enable the expenditure of
  Act funded projects. (OAS-RA-L-10-06)                     Recovery Act funds before the April
                                                            2012 performance deadline specified
  Michigan                                                  in the grant agreement; and,
  Our review found that Michigan had
  established adequate internal controls               ➤➤   Fully documented and monitored,
  over selecting Recovery Act projects                      the status of internally managed
  and accounting for related expenditures.                  SEP projects as required by both
  However, the accomplishment of Recovery                   EERE and Louisiana policies and
  Act goals could be impeded by Michigan’s                  procedures.
  lack of effective procedures for assessing
  and monitoring high-risk SEP projects. We            Louisiana’s ability to meet the SEP
  also found that although EERE is required        Recovery Act objectives in a transparent
  to perform monitoring of each state’s SEP        manner could be hindered unless it
  activities annually, EERE had not performed      successfully addresses the above risks.
  monitoring of Michigan’s SEP activities          Management concurred with each of
  since 2005. Management concurred with            our recommendations to address these
  our recommendations to ensure that (1)           risks. EERE will continue to oversee the
  annual on-site monitoring of Michigan’s SEP      Louisiana Department of Natural Resources
  activities is performed; and, (2) Michigan       by conducting regular on-site visits, desk
  put in place internal controls and procedures    monitoring and frequent communication.
  to prevent inappropriate expenditures of         (OAS-RA-10-09)
  Recovery Act funds. (OAS-RA-10-18)


          Department of Energy – Office of Inspector General
 8
Florida                                          Preliminary Audit Report on
Our review identified weaknesses in the          Management Controls over the
implementation of Florida’s SEP Recovery         Commonwealth of Virginia’s Efforts
Act projects that have and will likely           to Implement the Recovery Act
continue to impact Florida’s ability to meet     Weatherization Assistance Program
the goals of the SEP and the Recovery Act.
Specifically:                                    The State of Virginia’s Department of
                                                 Housing and Community Development
   ➤➤   Florida used about $8.3 million to pay   (DHCD) administers the Recovery Act
        for solar energy projects that did not   grant through 22 local community action
        meet the intent of the Recovery Act to   agencies. Our audit disclosed that DHCD
        create new or save existing jobs;        had not implemented financial and reporting
                                                 controls needed to ensure Weatherization
   ➤➤   State officials did not meet goals       Program funds are spent efficiently and
        to obligate all Recovery Act funds       effectively. Specifically, DHCD had not:
        by January 1, 2010, thus delaying
        projects and preventing them from           ➤➤   Performed on-site financial
        achieving the desired stimulative,               monitoring of any of its sub-grantees
        economic impact;                                 under the Recovery Act;

   ➤➤   Florida officials had not ensured that      ➤➤   Reviewed documentation
        7 of the 18 award requirements for               supporting sub–grantee requests
        Recovery Act funding promulgated                 for reimbursements to verify the
        by the Department had been passed                accuracy of amount charged;
        down to sub-recipients of the award;
        and,                                        ➤➤   Periodically reconciled amounts paid
                                                         to sub-grantees to the actual cost to
   ➤➤   Certain internal control weaknesses              weatherize units;
        that could jeopardize the program
        and increase the risk of fraud, waste       ➤➤   Maintained vehicle and equipment
        and abuse were identified in the Solar           inventories as required by Federal
        Energy System Incentives Program.                regulations and state and Federal
                                                         program directives; and,
     Florida’s ability to meet the SEP
Recovery Act goals is threatened unless             ➤➤   Accurately reported Weatherization
it takes corrective action to address the                Program results to the Department.
above weaknesses. Management concurred
with each of our recommendations and                 The Department’s 2008 program
will continue to complete actions to better      monitoring visit did not include a required
manage Recovery Act requirements.                financial review; hence, the financial
(OAS-RA-10-12)                                   control weaknesses discussed above were


                                        APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                               9
SEMIANNUAL REPORT TO CONGRESS


  not detected and had not been addressed.         with the original plan to process the waste at
  We made recommendations designed to              AMWTP.
  ensure that Virginia establishes financial           We recommended that the Department:
  and reporting controls and that Federal          1) determine the amount of Hanford
  project officers include financial reviews       contact-handled TRU waste that is suitable
  and evaluations of reporting capability in       for processing at the AMWTP and ultimate
  their on-site monitoring visits. Management      disposal at the Waste Isolation Pilot Plant;
  provided a response to our report that           and, 2) fully analyze the cost implications of
  included planned actions to address our          processing Hanford’s contact-handled TRU
  recommendations. (OAS-RA-10-11)                  waste on-site, as opposed to processing it
                                                   at the AMWTP. Management concurred
                                                   with the recommendations in the report but
  Waste Processing and Recovery Act
                                                   disagreed with the estimated cost increase
  Acceleration Efforts for Contact-
                                                   for Richland to prepare the TRU waste for
  Handled Transuranic Waste at the
                                                   disposal as opposed to using AMWTP.
  Hanford Site
                                                   Richland agreed to re-evaluate its life-cycle
  The Department’s Office of Environmental         baseline by September 30, 2010, as outlined
  Management (EM), Richland Operations             in our recommendations. (OAS-RA-10-10)
  Office (Richland) is responsible for disposing
  of the Hanford Site’s transuranic (TRU)
                                                   The Department’s Management of
  waste. As such, Richland developed a
                                                   the NSLS-II Project
  Record of Decision outlining its plan to ship
  contact-handled TRU waste from Hanford           The Department’s Office of Science (Science)
  to the Advanced Mixed Waste Treatment            is currently constructing the National
  Project (AMWTP). Subsequent to the               Synchrotron Light Source II at Brookhaven
  completion of that plan, EM allocated $229       National Laboratory (Brookhaven) in Upton,
  million of the Recovery Act funds to support     NY. To help accelerate completion, Science
  Hanford’s Solid Waste Program, including         allocated $150 million in funding from the
  Hanford’s contact-handled TRU waste.             Recovery Act.
      Our audit revealed that the Department           Although specifically required, we found
  had not yet implemented its plan to              that Brookhaven did not always segregate
  process Hanford’s contact-handled TRU            Recovery Act and non-Recovery Act
  waste. Instead, relying on the availability      costs. Even though the general contractor
  of Recovery Act funds, the Department            accurately reported these activities as
  changed course and approved an alternative       non-Recovery Act funded on its invoices,
  plan for processing Hanford TRU waste            Brookhaven chose to accrue the costs to
  on-site rather than at the AMWTP. We             Recovery Act accounts. The costs were
  determined that this alternative approach        correctly charged to non-Recovery Act
  could increase costs by about $25 million        accounts when they were ultimately paid,
  and would fail to achieve the previously         however, errors resulting from the improper
  anticipated reductions in volume associated      accrual were not corrected and resulted in


          Department of Energy – Office of Inspector General
 10
inaccurate information being reported to         at Savannah River, transportation to an
www.FederalReporting.gov. We also found          interim site, storage at the interim site, and,
that the general contractor did not always       repackaging and transportation to the yet to
segregate Recovery Act and non-Recovery          be determined final disposition point.
Act costs.                                            We suggested that the Department
    We suggested that the Brookhaven             consider the expressed concerns as it
Site Office Contracting Officer direct           evaluates the economic feasibility and
Brookhaven to improve coordination with          programmatic impact of the planned or
the general contractor to ensure sufficient      pending move of the Savannah River DU
funding has been allocated for work that         oxides to an interim storage facility in
will be performed ahead of schedule; and,        Texas. Management stated that although a
reconcile the accrual accounts periodically      final decision on the storage and disposal
to ensure that the amount spent under the        of the DU oxides has not been made, they
Recovery Act is accurately reported to www.      are aware of the concerns that a decision
FederalReporting.gov. (OAS-RA-L-10-01)           to pursue interim storage may result in
                                                 increased cost to the Department. They
                                                 concluded that the Department intends to
Department’s Environmental
                                                 permanently dispose of the DU oxides off-
Management’s Select Strategy for
                                                 site while delivering the overall best value
Disposition of Savannah River Site
                                                 to the taxpayers, considering both cost and
Depleted Uranium Oxides
                                                 non-cost factors. (OAS-RA-10-07)
During April 2009, the Department chose
to use funds provided under the Recovery
                                                 The Fermi National Accelerator
Act to accelerate final disposition of the
                                                 Laboratory’s NOvA Project
Savannah River Site (Savannah River)
inventory of Depleted Uranium (DU)               The NuMI Off-Axis electron neutrino
oxides. After coordination with State of         (ve) Appearance (NOvA) experiment is a
Utah regulators, elected officials and the       neutrino physics research project conducted
U.S. Nuclear Regulatory Commission, the          by the Office of Science’s Fermi National
Department initiated a campaign to ship the      Accelerator Laboratory (Fermilab). The
material to a facility in Clive, Utah.           University of Minnesota received $40
    Because of objections by state officials,    million in Recovery Act funding through a
the Department outlined an alternative for       cooperative agreement administered by the
temporary storage until the final disposition    Department’s Chicago Office to accelerate
issues could be resolved. Under the terms        construction of an accelerator and detector
of the proposed option, the remaining            system needed for the NOvA experiment.
shipments are to be sent to an interim               Our audit identified issues with the
storage facility. Clearly, this choice carries   administration of the NOvA cooperative
with it a number of significant logistical       agreement and related reporting on jobs
burdens, including substantial additional        funded under the Recovery Act.  At the time
costs for, among several items, repackaging      of our field work, the Chicago Office had not


                                        APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                               11
SEMIANNUAL REPORT TO CONGRESS


  implemented additional oversight controls            ➤➤   Revise the project baseline to correct
  specific to the University of Minnesota’s                 the problems identified in this report;
  use of Recovery Act funds.  Also, the
  Chicago Office had not, in a timely manner,          ➤➤   Ensure that the contractor’s Earned
  incorporated revisions to the Special Terms               Value Management System is
  and Conditions written to capture Recovery                accurately tracking performance
  Act requirements into the cooperative                     against valid baseline estimates; and,
  agreement.  
      We suggested that planned additional             ➤➤   Ensure that baseline changes are not
  monitoring and oversight activities be                    retroactively made based on actual
  performed over financial assistance                       costs. (OAS-RA-L-10-03)	
  recipients to ensure compliance with
  Recovery Act requirements. 
                                                   The Department’s Progress in
  (OAS-RA-L-10-02)
                                                   Implementing the Advanced Batteries
                                                   and Hybrid Components Program
  Moab Mill Tailings Cleanup Project               under the Recovery Act
  Under the terms of the Recovery Act, the         The Department’s Advanced Battery and
  Department allocated an additional               Hybrid Components Program (Program)
  $108 million to the Moab Uranium Mill            received almost $2 billion to support the
  Tailings Remedial Action Project (Moab           construction of U.S.-based manufacturing
  Project) to accelerate work and create jobs.     plants to produce batteries and electric drive
  With the additional funding, a contractor        components. Our audit revealed that the
  plans to relocate an additional two million      Department had made significant progress
  tons of tailings by September 30, 2011.          in implementing the Program. It also had
      Our audit noted certain weaknesses           established conditions as part of the grant
  in the management of the performance             awards and designed a monitoring program
  baseline for the Moab Project. These issues      to mitigate risks associated with the Program.
  relate specifically to the baseline change           We noted, however, that success of these
  control process and increased the risk that      measures will depend on the effectiveness
  the contractor’s performance rating may be       of their enforcement and implementation.
  inflated. The weaknesses occurred because        In the past, we have observed that the
  the Department did not ensure that the           Department had not always enforced
  project’s baselines could be traced to project   conditions placed on financial assistance
  work scope or that they were properly            awards and had not effectively monitored
  supported and appropriately managed.             project performance. As a result, continued
      To address these issues, we suggested        vigilance is necessary to avoid the same or
  that Department officials:                       similar problems with this grant program.
                                                   (OAS-RA-L-10-04)




          Department of Energy – Office of Inspector General
 12
Accounting and Reporting of the                    in this category included in our review
Recovery Act by the Department’s                   had modified their accounting systems,
Funding Recipients                                 as necessary, to ensure that they could
                                                   accurately track and report on Recovery Act
The Office of Management and Budget                activities.
(OMB) issued guidance for carrying out                 We recommended that the Department
stimulus-related activities which requires,        adjust the quality assurance process and
among other things, that recipients ensure         ensure that all officials responsible for
funds provided by the Recovery Act are             Recovery Act recipient reporting are
clearly distinguishable from non-Recovery          adequately trained. Management agreed
Act funds in all reporting systems and that        with our recommendations and indicated
recipients’ actions are transparent to the         that it had taken corrective actions.
public. While our review revealed that             (OAS-RA-10-06)
the Department had taken a number of
actions designed to ensure the accuracy
                                                   Management Controls over the
and transparency of reported Recovery Act
                                                   Development and Implementation
results, opportunities exist to strengthen the
                                                   of EERE’s Performance and
process. In particular:
                                                   Accountability for Grants in Energy
                                                   System
   ➤➤   Site officials did not always ensure
        that anomalies, once identified            To help manage the Energy Efficiency
        during the quality assurance process,      and Conservation Block Grant (Block
        were actually resolved;                    Grant) Program, EERE plans to spend
                                                   approximately $9.5 million, nearly all
   ➤➤   The Department did not always              of which is Recovery Act funding, for
        utilize the correct basis when             development and operation of the web-based
        evaluating the accuracy of “funds          Performance and Accountability for Grants
        provided” data submitted by grant          in Energy (PAGE) System. In addition to
        recipients; and,                           block grant tracking, PAGE will replace
                                                   the Windows System Approach to Grants
   ➤➤   Management did not correct duplicate       Administration legacy system for tracking
        reports by certain recipients, resulting   grant recipients’ performance under the
        in overstatements of as much as $137       State Energy and Weatherization Assistance
        million of the more than $18 billion       Programs.
        obligated.                                     Our audit revealed that although PAGE
                                                   had been partially deployed and was being
     We observed that the Department               used by EERE and grant recipients, it did not
had taken prompt action to ensure that             satisfy a number of important cyber security
its prime facility management contractors          requirements. In addition, the development
could properly report Recovery Act                 of the system was not conducted in
information. Notably, the seven contractors        accordance with Federal requirements.


                                         APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                              13
SEMIANNUAL REPORT TO CONGRESS


  EERE’s decisions to not perform these cyber       and monitoring of EFRC research awards. 
  security and project management tasks             Science had approved management plans
  placed the PAGE system and the network            for the grants and had performed site visits,
  on which it resides at increased risk that the    held monthly teleconferences to review
  confidentiality, integrity, and availability of   scientific progress, and maintained frequent
  the Department’s information systems and          communication with the EFRCs.  Because
  data could be compromised.                        the EFRCs are newly established and display
      We made several recommendations,              characteristics that increase complexity and
  which if fully implemented, should help           risk, Science will need to provide continued
  improve future system development efforts         oversight and monitoring. 
  and enhance the Department’s cyber security       (OAS-RA-L-10-09)
  posture. Management generally concurred
  with the recommendations in the report
                                                    The Department’s Plan for Obligating
  and indicated that corrective actions were
                                                    Remaining Recovery Act Contract and
  underway. (OAS-RA-10-14)
                                                    Grant Funding
                                                    A majority of the Department’s Recovery
  Office of Science’s Energy Frontier
                                                    Act funds ($32.7 billion) were provided
  Research Centers
                                                    in the form of contract and grant
  Science established 46 Energy Frontier            authority. Obligating such a significant
  Research Centers (EFRCs) to integrate the         amount of funds by September 30, 2010,
  talent and expertise of leading scientists to     is a challenging task, which has and will
  accelerate the rate of scientific breakthroughs   continue to require a significant, labor
  needed to create advanced energy                  intensive effort by the Department.
  technologies for the 21st century.  Sixteen            Our review disclosed that as of
  EFRCs were funded by the Recovery Act in          July 9, 2010, $3.4 billion remains to be
  the amount of $277 million.                       obligated in less than 3 months, mostly
      During our audit, nothing came to             in the form of financial assistance grants,
  our attention which indicated that Science        cooperative agreements, and contracts.
  had not substantially complied with               Efforts to meet current deadlines must
  Recovery Act requirements in expending            overcome a number of challenges and risks.
  funds for the EFRCs.  For example, we             To its credit, the Department has recognized
  found that the EFRCs were generally in            these challenges, has concluded that its
  compliance with reporting guidelines, had         plan is sufficient to address the risks, and
  segregated funds, and had ensured that            is prepared to obligate remaining funds
  Recovery Act requirements were included           prior to expiration. While we respect
  in subcontracts.  Further, nothing came to        the intensity of the Department’s work
  our attention which indicated that Science        effort, we have identified significant
  had not established controls over the award       challenges that must be addressed if the




          Department of Energy – Office of Inspector General
 14
September 30, 2010, deadline is to be               For example, we found that the laboratories
met. We consider all of these concerns to           were generally in compliance with reporting
be material in nature. However, nothing             guidelines, had segregated costs, and had
came to our attention to indicate that the          ensured that Recovery Act requirements
Department’s plan to obligate remaining             were included in subcontracts. While we
Recovery Act funding by September 30,               noted some concerns with the Graphite
2010, will not be effective, at least for most of   Research Reactor project at Brookhaven and
its funds at risk.                                  the Building 310 project at Argonne, we also
     We suggested that the Recovery Act Team        determined that the Department had taken
and Office of Chief Financial Officer (OCFO)        actions to mitigate the concerns.
intensify planned monitoring and oversight          (OAS-RA-L-10-05)
activities with a particular concentration
on projects: (1) experiencing delays in the
                                                    Whistle Blower
selection of financial assistance awardees;
(2) containing conditional awards; and,             Retaliation
(3) requiring regulatory approval.
Management expressed its view that the              Section 1553 of the Recovery Act extends
overall content and tone of the report were         whistleblower protection to employees who
fair and accurate, and that our suggested           reasonably believe they are being retaliated
actions were logical and consistent with            against for reporting misuse of Recovery
current plans to address risks in obligating        Act funds received by their non-Federal
the remaining Recovery Act contract and             employers. Specifically, an employee of
grant funding. (OAS-RA-10-15)                       any non-federal employer, such as a private
                                                    company or a state or local agency, who
                                                    reports waste, fraud or abuse connected
Decommissioning and Demolition
                                                    to the use of Recovery Act funds may
Activities at Office of Science Sites
                                                    not be discharged, demoted or otherwise
The Department’s Office of Environmental            discriminated against because of his or her
Management allocated $140 million of                disclosure. During this reporting period, the
Recovery Act funds to decommission and              OIG received 10 Recovery Act Retaliation
demolish (D&D) Science’s facilities at              complaints. None of our complaints were
Argonne National Laboratory (Argonne)               required to be completed by the end of this
and to accelerate ongoing D&D activities at         period.
Brookhaven.                                             If you have a whistleblower complaint
    During our audit, nothing came to our           related to Department Recovery Act funds,
attention which indicated that Science had          please report it to the OIG at 1-800-541-1625
not substantially complied with Recovery            or 1-202-586-4073.
Act requirements in expending funds for the
Argonne and Brookhaven D&D projects.




                                          APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                               15
SEMIANNUAL REPORT TO CONGRESS




                             THIS PAGE INTENTIONALLY LEFT BLANK




        Department of Energy – Office of Inspector General
 16
SEMIANNUAL REPORT TO CONGRESS




                      Other Significant Audits, In-
                      spections, and Reviews

    Allegations Involving the National             Nuclear Safety: Safety Basis and
    Nuclear Security Administration’s              Quality Assurance at the Los Alamos
    National Security Vaults                       National Laboratory

    We received a complaint alleging that          To meet its mission, Los Alamos
    improvements and clarifications were           National Laboratory (Los Alamos)
    needed in both the Department’s and            employees and subcontractors operate
    National Nuclear Security Administration’s     in close proximity to or in contact with
    (NNSA) site-specific policies and              special nuclear materials, explosives and
    procedures regarding visitor access to         hazardous chemicals. The Department
    nuclear weapons data and displays within       considers safety an integral part of its
    certain NNSA national security vaults.         mission, operating in compliance with
    Also included in the complaint was an          nuclear safety requirements that require
    allegation regarding the need to improve       contractors to complete Documented
    the accountability of nuclear weapon           Safety Analyses that identify hazards
    models displayed within the national           associated with relevant work processes
    security vaults. We did substantiate           and to design and implement controls
    the allegation that improvements               over such hazards. Further, contractors
    and clarifications were needed in the          are required to develop and implement a
    site-specific policies and procedures          Quality Assurance Program to prevent or
    regarding visitor access and made certain      detect safety problems in the workplace.
    recommendations for improvement. Our               Our review disclosed that despite
    review could not substantiate the allegation   repeated efforts by Los Alamos to address
    concerning a need for improvements in the      nuclear safety issues, past actions had not
    accountability of nuclear weapons displays.    been successful in ensuring that all nuclear
    (INS-L-10-02)                                  safety management requirements were
                                                   fully implemented. We concluded that
                                                   management had not focused sufficient
                                                   attention in the past on implementing the




                                       APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                             17
SEMIANNUAL REPORT TO CONGRESS


  nuclear safety Quality Assurance Program          and control hard drives which potentially
  throughout Los Alamos. We noted that Los          contain sensitive unclassified information.
  Alamos has recently taken some positive           We recommended that ORNL management:
  steps designed to address weaknesses in
  nuclear safety. Yet, it had not developed            ➤➤   Implement the Department’s
  and approved a corrective action plan                     requirements concerning storage
  establishing milestones and identifying                   of media no longer in use and
  the resources needed to address enhanced                  previously used to process sensitive
  processes and procedures.                                 unclassified information; and,
      Until Los Alamos corrects weaknesses
  in the analysis of hazards, establishes              ➤➤   Ensure ORNL trains employees on
  compensating internal controls,                           its policy and procedures regarding
  identifies and addresses all unresolved                   removal of computer hard drives.
  quality assurance issues, and completes                   (INS-O-10-03)
  implementation of its ongoing initiatives,
  there is no assurance that safety risks
                                                    The Department’s Opportunity for
  associated with work processes are
                                                    Energy Savings Through Improved
  minimized. These corrective actions
                                                    Management of Facility Lighting
  are critical to maximizing the reliability
  and performance of Los Alamos’ safety             The Department spends nearly $190 million
  systems. Management generally agreed              per year in electricity costs, with roughly
  with the report and stated that although the      40 percent of those costs attributable
  operations at Los Alamos are safe, continued      to the cost of lighting. New lighting
  improvement is needed to meet expectations        technologies and advanced lighting systems
  for NNSA’s nuclear facilities. Management         offer the Department the opportunity to
  further stated that work is underway to           significantly reduce energy consumption;
  pursue those expectations and address the         decrease operating costs at its sites; and,
  concerns raised in the report.                    demonstrate the benefits of using new
  (DOE/IG-0837)                                     lighting technologies that are currently being
                                                    developed in its laboratories and by other
                                                    sources.
  Insufficient Internal Controls over
                                                        Our audit revealed that the seven sites
  Computer Hard Drives at the Oak
                                                    included in our review had not always
  Ridge National Laboratory
                                                    taken advantage of lighting technology
  We initiated an inspection to review              opportunities to reduce energy consumption
  the facts surrounding an allegation that          and save taxpayer dollars. While the sites
  computer hard drives were being removed           had, to varying degrees, begun to update
  by unauthorized individuals at the Oak            lighting, significant opportunities for
  Ridge National Laboratory (ORNL). We              conservation remain. Specifically, we noted
  determined that ORNL did not have                 that the sites had not always:
  adequate internal controls to effectively track


          Department of Energy – Office of Inspector General
 18
   ➤➤   Used the most efficient lighting. In      subsequently rehired to perform the same or
        fact, each of the sites used outdated     similar jobs but were not required to repay
        fluorescent lights when more energy       severance money. We found that 37 former
        and cost efficient alternatives were      WSRC employees who participated in the
        available;                                2007 workforce restructuring inappropriately
                                                  received about $1.1 million in severance
   ➤➤   Implemented, to the extent practical,     payments. We believe that these costs
        energy efficient lighting technologies,   were unallowable and that they should be
        such as spectrally enhanced lighting      recovered by the Department. Savannah
        (SEL) and solid state lighting (SSL),     River Operations Office management
        whose research and development            officials agreed to conduct reviews to
        had actually been funded by the           determine how much severance money
        Department; and,                          should be disallowed. (INS-O-10-02)

   ➤➤   Maximized the energy savings
                                                  The Department’s Information
        associated with installing automated
                                                  Technology Capital Planning and
        lighting control systems.
                                                  Investment Control Activities
    By not capitalizing on opportunities to       The Department spends approximately $2.2
improve lighting efficiency, the Department       billion annually on information technology
uses and will continue to use more energy         (IT) resources to help accomplish its science,
than necessary, impacting its ability to          security, energy supply and environmental
achieve its mission to advance the energy         mission objectives. The Department’s capital
security of the United States. We made            planning and investment control (CPIC)
several recommendations designed to assist        process is an essential tool for managing IT
the Department in its effort to save energy       investments. OMB requires that agencies
and reduce costs. Department management           implement a well-managed CPIC process to
generally agreed with our findings and            enhance the ability to properly set spending
recommendations. (DOE/IG-0835)                    priorities, control investments and evaluate
                                                  the success of those investments once
                                                  completed.
Questioned Severance Repayments
                                                       Our review found that the Department
at Savannah River
                                                  had not effectively implemented a CPIC
We received a hotline allegation that             process for controlling and managing IT
employees of the Washington Savannah              spending. Specifically, management tools
River Company (WSRC), a former                    required by OMB, such as IT investment
management and operating contractor,              portfolios and capital asset plans, which
had inappropriately received severance            enable the Department to select and
payments under the 2007 Savannah River            control its IT investments, had not been
workforce restructuring plan. Specifically,       properly implemented. As a result, IT
it was alleged that certain employees were        capital planning activities did not provide


                                        APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                              19
SEMIANNUAL REPORT TO CONGRESS


  Department senior management with                 operated facility that manufactures
  timely and accurate information essential         nonnuclear components for the nuclear
  for making informed decisions about               weapons stockpile. The Plant, which
  investments that compete for limited              is located within the Bannister Federal
  resources.                                        Complex (Complex), was built in 1942 to
      We made several recommendations,              manufacture airplane engines and in 1949
  which if fully implemented, should                began producing electrical and mechanical
  help the Department improve its CPIC              weapon components for the nuclear
  process. Management concurred with the            weapons stockpile. From the 1940s to the
  recommendations in the report and indicated       1960s, parts of the Complex were used as
  that corrective actions were underway.            an industrial and sanitary dumping ground.
  (DOE/IG-0841)                                     This resulted in significant groundwater
                                                    and soil contamination. Current and former
                                                    employees and families of former employees
  Alleged Procurement Irregularities
                                                    of the Complex have recently raised concerns
  Relating to the Clean Coal Power
                                                    about serious illnesses, in some cases leading
  Initiative Gilberton Coal-to-Clean Fuels
                                                    to death, resulting from exposure to toxins at
  and Power Project
                                                    the Complex.
  We initiated a preliminary review regarding            Our review disclosed that the Plant
  alleged procurement irregularities                had what appeared to be appropriate
  concerning the Gilberton Coal-to-Clean            environmental and worker health and safety
  Fuels Project. Specifically, it was claimed       systems in place at given points in time
  that at a March 2008 meeting Departmental         covered by our review. We also noted that
  officials inappropriately encouraged one of       our review was not and should not be viewed
  the major participants to withdraw from the       as an epidemiological study of the health
  project and that this action effectively was      consequences or the long-term effects of
  the impetus for terminating the Gilberton         exposure to contaminants at the Plant.
  Project through the reprogramming of the          (DOE/IG-0839)
  Department’s $100 million contribution to
  the Project. Based on our review, we found
                                                    The Department’s Freedom of
  no evidence to support the contention
                                                    Information Act Request Process
  that the aforementioned meeting was the
  impetus for the reprogramming of funding.         The Freedom of Information Act (FOIA)
  (S10IS007)                                        specifies a government-wide document
                                                    disclosure process. Recently, Senator
                                                    Grassley and Congressman Issa requested
  Environment and Worker Safety
                                                    that the OIG perform an inquiry to
  Control Systems at NNSA’s Kansas
                                                    determine whether political appointees were
  City Plant
                                                    made aware of information requests and
  The NNSA’s Kansas City Plant (Plant)              had a role in reviews or decision-making
  is a government-owned, contractor-                regarding FOIA requests.


          Department of Energy – Office of Inspector General
 20
    Our review did not identify evidence of          ➤➤   Award of work to a contractor
political interference or intervention into the           without adequate competition.
FOIA process. While political appointees,
in some cases, may have been aware of                 Our review concluded that the allegation
FOIA requests, we were unable to identify         of pre-selection of a senior EERE official
any instances when these individuals had a        was substantiated. We identified a number
role in the information release or decision-      of actions by management officials that
making processes. Specifically, we observed       contributed to a concern expressed by
that FOIA requests are processed as they are      many in the EERE career workforce that the
received by the Headquarters FOIA Officers        contract employee in this case performed
and the program and field-level FOIA              a number of inherently governmental
Officers, all career Federal employees. We        functions. We were unable to substantiate
did, however, identify several opportunities      the allegation regarding lack of adequate
to improve the efficiency of the Department’s     competition in contractor work awards.
FOIA program. We noted areas where                We also found evidence that EERE officials
improvements in electronic request                requested support service contractors to hire
processing, policy and procedures, and fee        specific individuals.
determination could help reduce processing            Because of the significance of the
times and improve the general efficiency of       Recovery Act and the relevance of the
the Department’s FOIA process.                    Department’s hiring and contracting
(OAS-SR-10-03)                                    practices to the success of the Recovery
                                                  Act’s energy components, the Department
                                                  should take prompt action to ensure that the
Review of Allegations Regarding
                                                  issues raised in our report are thoroughly
Hiring and Contracting in EERE
                                                  reviewed and addressed. We made several
In April 2010, we began receiving allegations     recommendations designed to help improve
concerning hiring and contracting within          the integrity of the hiring and contractor
EERE. These allegations included:                 management process. (OAS-SR-10-04)

   ➤➤   Improprieties in the hiring of a
                                                  Precious Metals at NNSA Sites
        contract employee to a senior Federal
        career position, including concerns       The NNSA uses precious metals, such as
        that the contract employee was pre-       gold, silver, and platinum at its National
        selected or otherwise had an unfair       Laboratories and production sites for
        advantage;                                research and development and to construct
                                                  weapon components. Due to their value,
   ➤➤   Performance of inherently                 Federal Regulation requires Department
        governmental duties, including the        organizations and contractors to establish
        supervision of Federal employees, by      effective procedures and practices for their
        the same contract employee; and,          administrative and physical control.




                                        APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                                 21
SEMIANNUAL REPORT TO CONGRESS


       Our audit determined that existing           reporting relationship between the analysts
  controls at the NNSA sites we visited             and Livermore’s Audit Committee also
  provided reasonable assurance that precious       contributed to nonconformance with
  metals were adequately accounted for and          standards. In addition, NNSA’s Livermore
  safeguarded. However, we noted that the           Site Office did not enforce the Department’s
  sites we visited did not always efficiently       requirements for auditing subcontract
  manage their precious metal resources. For        incurred costs. Livermore’s contract
  example, sites did not always identify idle and   Statement of Work, for example, did not
  excess metals. In addition, one site disposed     require subcontract audits. Additionally, the
  of, as waste, $1.2 million of contaminated        Livermore Site Office approved Livermore’s
  precious metals that could have been held for     approach to performing subcontract
  future decontamination and recycling.             reviews rather than requiring it to perform
       We suggested that NNSA management            subcontract audits in accordance with
  (1) develop guidance for site offices to follow   professional auditing standards.
  in determining whether to store or dispose            We suggested that the NNSA Senior
  of precious metals held under a July 2000         Procurement Executive provide guidance
  Secretary of Energy suspension; and,              to the Livermore Site Office that establishes
  (2) direct site offices to enforce requirements   risk-based criteria for when the Contracting
  for conducting annual reviews to determine        Officer should require subcontract audits that
  idle and excess quantities on hand and            comply with IIA standards. (OAS-L-10-09)
  obtaining justifications and management
  approval for the retention of precious metals.
                                                    NNSA’s Contracts for the Down-
  (OAS-L-10-10)
                                                    Blending of Highly Enriched Uranium
                                                    The NNSA awarded two fixed‑price
  Subcontract Auditing at Lawrence
                                                    contracts, with a combined value of $314
  Livermore National Laboratory
                                                    million, to a contractor to down‑blend 29.5
  Lawrence Livermore National Security,             metric tons of highly enriched uranium
  LLC, manages and operates the Lawrence            (HEU) and store the resulting low enriched
  Livermore National Laboratory (Livermore)         uranium (LEU) at a private sector facility.
  under a contract with NNSA. In each Fiscal        In total, the contracts are expected to
  Year (FY) from 2006 to 2008, Livermore            generate about 510 metric tons of LEU,
  incurred approximately $1.3 billion of costs      approximately 397 metric tons of which will
  on behalf of the Department.                      be Government‑owned. The remainder will
      During our review, we found that              be bartered to the contractor as payment.
  Livermore’s subcontract reviews did not               Our review revealed that NNSA’s
  always meet, among other things, the quality      management of certain insurance and
  requirements established by the Institute         financial guarantees associated with
  of Internal Auditors (IIA) Standards.             the contracts may not fully protect the
  Further, the absence of a functional              Government from potential losses. For




          Department of Energy – Office of Inspector General
 22
example, NNSA had not ensured that               assigned management of the program to the
insurance coverage provided by the contractor    Office of Civilian Nuclear Waste Management
was adequate to protect the Government’s         (OCRWM) and formally designated the
financial interest in LEU. Further, NNSA did     project as the Yucca Mountain Project
not obtain a corporate financial assurance       (Project). Bechtel SAIC Company, LLC
guarantee for one of the down‑blending           (BSC) was the management and operating
contracts. Also, neither contract contained      contractor for the Project from April 1,
a Federal Acquisition Regulation provision       2001, until its contract with the Department
requiring that the contracting officer be        ended on March 31, 2009. In early 2009, the
notified before any changes to insurance         Department indicated that it intended to
policies adversely impacting Government          terminate the Project and is moving to shut
interests take effect. Finally, NNSA did not     down all activities by September 30, 2010.
have any formal policies or procedures in            Although we take no position regarding
place to periodically reassess the adequacy      the policy judgment to terminate the Project,
of insurance coverage. While the amount of       we have been and remain concerned that any
insurance coverage in effect may be sufficient   shutdown be consummated in a way that
during the early stages of the two contracts,    protects the national interest, including the
it may become insufficient as the volume of      interests of the ratepayers and taxpayers who
LEU in storage increases.                        financed the Project. In recent years, we have
    We suggested that management work            been involved in a number of Departmental
with the contracting officer to modify both      actions with attributes and characteristics
contracts to incorporate the requirement         similar to those that will be encountered
that procurement officials be notified prior     during the Yucca Mountain shutdown. In the
to any cancellation of, or material change to,   interest of helping to assure an orderly Project
insurance policies protecting Government         termination, we provided the Department’s
interests. In addition, we also suggested that   decision-makers with several of the most
formal procedures be developed for reviewing     important lessons learned from these events.
the adequacy of insurance policies protecting        The Department has taken a number
high value Government assets. (OAS-L-10-08)      of actions designed to bring the Project
                                                 to closure. However, given the lack of an
                                                 approved master plan to manage this process
Need for Enhanced Surveillance
                                                 and the press of a very ambitious shut down
and the Resolution of Questioned,
                                                 schedule, special attention by senior level
Unresolved and Potentially
                                                 Department management will be necessary if
Unallowable Costs Incurred for the
                                                 the process is to be an orderly one.
Yucca Mountain Project
                                                 (OAS-SR-10-01)
The Nuclear Waste Policy Act Amendments              Another OIG report identified specific
of 1987 designated Yucca Mountain as the         contractor-incurred costs questioned in a
site for a national geologic repository for      previous contract audit report that will need
high-level nuclear waste. The Department         to be resolved as part of the Project shut down




                                       APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                               23
SEMIANNUAL REPORT TO CONGRESS


  and contract close-out. We identified over        the former Departmental sites at Portsmouth
  $175 million in questioned and unresolved         and Paducah.
  costs claimed by BSC during Fiscal Years              We addressed four specific issues raised
  2001 through 2009. Specifically,                  by the Chairman. We concluded that the
                                                    Department’s decision to not provide a
      ➤➤   $19,024,410 in questioned costs that     portion of the surplus assets to these former
           had been identified in audits and        contractor employees was not unreasonable.
           reviews and had not been resolved;       Under the circumstances, however, the
           and,                                     concern of these retirees is understandable.
                                                    We also opined that if Congress were to
      ➤➤   $159,955,538 in subcontract costs        enact special legislation, the Department
           that we considered unresolved            appears capable of administering a lump-
           because necessary audits had not         sum settlement program. (OAS-L-10-06)
           been requested or performed.
                                                    The Interim Treatment of Salt Waste
      In connection with our audit, OCRWM
                                                    at Savannah River
  indicated that it is in the process of
  reviewing the:                                    The Department named Savannah River
                                                    Remediation, LLC (SRR) as the contractor
      ➤➤   Subcontracts which the OIG               to manage the radioactive liquid waste
           identified as requiring an audit; and    operations at Savannah River. The Salt
                                                    Waste Processing Facility (SWPF), which
      ➤➤   Questioned costs identified in the       is being designed and constructed by a
           report in order for the Contracting      different contractor, is a new Savannah River
           Officer to make a determination of       Site facility designed to utilize advanced
           allowability for those costs.            technologies to treat the salt portion of the
           (OAS-SR-10-02)                           liquid radioactive waste inventory. Until the
                                                    SWPF is completed and to address interim
                                                    needs, two existing facilities and one newly
  Former Uranium Enrichment Workers:
                                                    constructed facility were utilized to form the
  Questions Regarding Equity in
                                                    Integrated Salt Disposition Project (ISDP).
  Pension Benefits
                                                    The ISDP began radioactive operations in
  On June 8, 2010, we received a request from       April 2008 and was designed to operate for
  Henry Waxman, Chairman, Committee on              three years until the SWPF was originally
  Energy and Commerce (Committee), United           expected to be operational.
  States House of Representatives, soliciting           Our audit revealed that the ISDP
  our opinion on matters related to legislation     will likely operate well beyond its 3-year
  being considered by the Committee that            design life. To address this situation, the
  would provide increases in annuities equal        Department commissioned an ISDP life
  to those received by ORNL contractor              extension evaluation which concluded that
  employees to certain retirees who worked at       the ISDP will require some active process


           Department of Energy – Office of Inspector General
 24
equipment replacement beginning in 2011,         as an IT investment. In particular, program
but can likely operate until 2015 before         officials had not always applied sound capital
major equipment or infrastructure failure is     planning and investment control practices
anticipated.                                     as required for an effort of this magnitude
     We also noted that SRR’s performance        and complexity. These weaknesses occurred
baseline for high-level liquid waste             primarily due to inadequate management
operations was found to be deficient. In         guidance and direction and ineffective
response to this issue, the Savannah River       program monitoring.
Operations Office Contracting Officer signed          We made recommendations, which
a memorandum citing expectations for             if fully implemented, should: (1) help
scope execution for Liquid Waste operations      increase the likelihood of accomplishing
and to concur with the Liquid Waste Scope        and sustaining PRIDE’s long-term goals;
Description.                                     (2) assist the Department in its general
     We believe management’s actions, if fully   efforts to improve contract and project
implemented, are responsive to mitigating        administration; and, (3) advance the
the challenges posed by extending the ISDP’s     President’s commitment to promote
life cycle and will enable SRS to measure the    transparency and accountability.
contractor’s performance. (OAS-L-10-04)          Management generally concurred with our
                                                 recommendations and stated its intention
                                                 to initiate corrective actions to address the
The NNSA’s Management of the
                                                 recommendations. (DOE/IG-0836)
Product Realization Integrated Digital
Enterprise Program
                                                 NNSA’s Site Office Training and
To respond effectively to changing
                                                 Staffing
requirements and share and exchange
weapon product information among                 To meet its mission, the NNSA uses
sites, the NNSA established its Product          Federally-run site offices to oversee the
Realization Integrated Digital Enterprise        management and operating contractors
(PRIDE) Program in FY 2007. PRIDE                that operate each of NNSA’s eight nuclear
was established to develop and deploy a          weapons research and production sites.
modernized, integrated suite of enhanced         As recognized by NNSA leadership,
IT capabilities to securely deliver weapon       people are the most important resource
product life-cycle information to users across   for meeting critical mission objectives
sites. The NNSA anticipates that PRIDE will      including maintaining the stockpile and
result in a reduction in weapon development      performing nonproliferation and nuclear
cycle times and associated expenses as site-     counterterrorism work.
level information systems are consolidated           Our audit found that NNSA had
and modernized.                                  not always ensured that staff training
    Our audit revealed that PRIDE had not        requirements were defined nor had it fully
been well-planned and adequately managed         planned to meet staffing needs. Specifically:




                                       APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                             25
SEMIANNUAL REPORT TO CONGRESS


      ➤➤   NNSA had not determined the               Los Alamos Laboratories. The NNSA plans
           continuing education training             to spend an additional $18 billion over the
           requirements for site office personnel    next 10 years to complete construction of
           who provide assistance, guidance,         facilities. To ensure quality, NNSA required
           direction, oversight, or evaluation of    these laboratories to have construction
           contractor activities that could affect   contractors provide warranties for their
           the safe operation of defense nuclear     equipment and work.
           facilities; and,                              Our audit revealed that NNSA
                                                     laboratories had not always adequately
      ➤➤   Site offices had not always prepared      managed contract warranties. Rather,
           succession plans to ensure the            these laboratories performed work to
           effective transfer of knowledge           correct defects in equipment, material,
           that will be necessary if NNSA is         workmanship or design in the construction
           to successfully address potential         of facilities even though these items were
           retirement losses.                        covered by a warranty. The laboratories
                                                     had not implemented effective controls to
      To address these issues, we suggested          ensure that the warranty provisions specified
  that NNSA officials:                               in contracts were enforced. Specifically, we
                                                     found that Project Managers did not provide
      ➤➤   Ensure that continuing education          warranty documentation, including warranty
           training requirements are defined for     start dates or points of contacts from which
           the Technical Qualification Program       to seek remedy, to personnel responsible for
           qualifications;                           requesting, planning and performing work
                                                     orders. In addition, the laboratories did not
      ➤➤   Ensure that comprehensive                 have accurate or complete information to
           succession plans are developed for        request warranty repairs. Warranties that
           each NNSA site office; and,               were not exercised during the warranty
                                                     period resulted in unnecessary repair costs.
      ➤➤   Determine whether NNSA site offices       Based on a projection of our statistical
           are sufficiently staffed to meet future   sample of work orders, the laboratories
           mission needs. (OAS-L-10-05)              likely incurred at least $1.5 million by
                                                     performing repairs that were covered by a
                                                     warranty between FYs 2004 and 2008. To
  Management Controls over
                                                     reduce unnecessary expenses, we made
  Warranties Involving Newly
                                                     recommendations to improve the use of
  Constructed and Renovated Facilities
                                                     warranties to protect the Government’s
  at National Defense Laboratories
                                                     interest. Management concurred with our
  Between FY 2004 and 2008, Congress                 recommendations and will take appropriate
  provided over $1 billion to construct and          corrective actions. (OAS-M-10-02)
  renovate facilities at Livermore, Sandia, and




           Department of Energy – Office of Inspector General
 26
Integrated Safety Management at the              The Department’s Audit Resolution
Office of River Protection                       and Follow-up Process

The Department’s Office of River Protection      The Department’s audit resolution and
(ORP) has responsibility for the storage,        follow-up process provides an important
treatment, and disposal of over 53 million       mechanism for assisting management in
gallons of highly radioactive and hazardous      improving the performance of its programs.
waste generated during 4 decades of              Over the last 5 years, we have completed over
plutonium production. This waste is              350 audits – many of which demonstrated
currently stored in 177 large underground        that significant funds could be saved or costs
tanks while it awaits construction of the        avoided and operational efficiencies achieved
Waste Treatment Plant; a facility that will      by implementing our audit recommendations.
treat and immobilize the waste.                  Ensuring that effective corrective actions are
    Aware of the risks involved in safely        timely and address these recommendations is
managing this waste, in February 2009, ORP       a critical component of the audit process.
officials suggested that we review compliance         Our review found that the Department
with high radiation area requirements. We        had taken steps to improve its follow-up
found that ORP had not always ensured            process by issuing guidance and ensuring
that effective Integrated Safety Management      target closure dates were revised to reflect
(ISM) systems were maintained by its             latest estimates for the completion of
contractor. Even though its own reviews          corrective actions. However, additional
and those performed by external oversight        efforts are needed to ensure prompt and
organizations revealed a number of problems      effective corrective actions are taken to
with contractor safety systems, ORP had not      resolve weaknesses identified by audits.
always ensured that corrective actions were      Corrective actions taken by Departmental
effective and that predictive analyses such as   elements were not always complete, effective
trending of findings were performed.             or timely because of insufficient guidance
    To help ensure the development of            and inadequate monitoring and oversight of
an effective system of controls for oversight    the audit resolution and follow-up process.
and corrective action management, we             Consequently, the Department had not always
suggested that the Manager, ORP:                 realized potential programmatic savings and
(1) evaluate and implement the proposed          operational efficiencies that could be achieved
corrective actions being developed; and,         through a strong audit resolution process.
(2) take necessary actions to ensure that             We made several recommendations
senior ORP management is actively involved       which, if fully implemented, will help correct
in all phases of the corrective action           the problems observed and strengthen the
management process, including corrective         audit resolution process. Management
action plan review and verification and          concurred with the majority of the report’s
trending of data. (OAS-L-10-07)                  recommendations and proposed corrective
                                                 actions. (DOE/IG-0840)




                                       APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                              27
SEMIANNUAL REPORT TO CONGRESS


  Follow-up Audit on Retention and                 Audit Coverage of Cost Allowability
  Management of the Department’s
  Electronic Records                               During the period April 1, 2010 to
                                                   September 30, 2010, we issued eight
  The Department is required to establish and      Statement of Costs Incurred and Claimed
  maintain an effective records management         audit reports to assess internal controls over
  program that comports with regulations           costs claimed by the Department’s major
  established by the National Archives and         contractors. With a few minor exceptions,
  Records Administration. In February 2006         nothing came to our attention to indicate
  the Department developed policies to guide       that the allowable cost related audit work
  the implementation and maintenance of a          performed by Internal Audit did not meet
  cost-effective records management program.       Institute of Internal Auditors Standards and
       Although officials reported that the        could not be relied upon. While we did
  findings identified in our 2005 audit had        not identify any material internal control
  been addressed, we continued to identify         weaknesses, we noted concerns which need
  weaknesses with the Department’s ability         to be addressed to ensure that only allowable
  to retain and manage electronic records.         costs are claimed by and reimbursed to the
  In particular, we noted that Department          contractor. We questioned costs totaling
  programs, including NNSA and field               $184,719,880.
  sites, had not ensured that electronic
  records, including email, were identified,
  stored, and disposed of properly. The
  problems identified occurred, in part,
  because Department officials (1) had
  not effectively implemented electronic
  records management practices; (2) records
  management was generally considered a
  low priority by management; and,
  (3) Department and contractor employees
  were not always trained to identify, preserve,
  and dispose of electronic records.
       We made several recommendations that,
  if fully implemented, should improve the
  overall efficiency and effectiveness of the
  Department’s electronic records management
  program. Management concurred with the
  report’s recommendations and disclosed that
  it had initiated or already completed actions
  to address issues identified in our report.
  (DOE/IG-0838)




          Department of Energy – Office of Inspector General
 28
SEMIANNUAL REPORT TO CONGRESS




                       Investigative Outcomes

    Settlement Agreement Reached in                 Civil Settlement Agreement in
    the Sale of Defective Body Armor                Investigation of Kickbacks and
                                                    Defective Pricing
    As previously reported, a joint
    investigation was conducted into                As previously reported, a joint
    allegations that a body armor                   investigation with various law enforcement
    manufacturer knowingly participated in          agencies determined that multiple
    the manufacturing and sale of defective         contractors received or provided benefits
    body armor containing Zylon. The body           such as rebates, influence fees, referral
    armor company sold this defective body          fees, finder’s fees, discounts, and/or
    armor to the Department as well as to           development funds as a result of alliance
    other Federal, state, local, and tribal law     agreements. Until now, the investigation
    enforcement agencies. Seven separate            resulted in 2 defendant companies agreeing
    companies that provided component parts         to civil settlements totaling
    of the armor, or the armor itself, previously   $3.7 million; however, during this
    agreed to pay a total of $58 million to         reporting period, another 4 defendant
    resolve allegations that they violated the      companies/distributers agreed to civil
    False Claims Act. During this reporting         settlements totaling $190.5 million. This
    period, an eighth company agreed to             investigation is being conducted with
    pay $988,222 to avoid civil, contractual,       the Department of Justice Civil Division,
    and/or administrative claims by the U.S.        Defense Criminal Investigative Service,
    Government concerning sale of defective         General Services Administration OIG
    Zylon body armor to the U.S. Government.        (Audits and Investigations), U.S. Postal
    This remains an ongoing investigation with      Service OIG, and the Defense Contract
    the Department of Justice Civil Division,       Audit Agency and remains ongoing.
    and several other Federal law enforcement
    agencies.




                                        APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                            29
SEMIANNUAL REPORT TO CONGRESS


  Department Contractor Enters Civil                employed at the Federal Aviation
  Settlement                                        Administration (FAA), misused a
                                                    Government computer system to improperly
  The security services contractor at Savannah      obtain surplus items from other Federal
  River entered into a civil settlement for         agencies for the employee’s and a family
  $650,000 related to violations of the False       member’s personal use. The surplus items
  Claims Act (FCA) and Federal Acquisition          included a backhoe from Los Alamos and
  Regulations (FAR). The investigation              other items from Sandia and Western Area
  determined the contractor fraudulently            Power Administration. The family member
  certified five incurred cost submissions          was convicted of Mail and Wire Fraud, Theft,
  which included expressly unallowable costs.       and Unlawful Monetary Transactions. The
  The settlement amount included $122,598           FAA employee pled guilty to Wire Fraud and
  in single FCA damages and $527,402 in FAR         Theft of Honest Services.
  penalties, all of which will be returned to the       During this reporting period, the
  Department.                                       former FAA employee was sentenced in U.S.
                                                    District Court in Tacoma, WA, to 42 months
                                                    imprisonment and 3 years supervised
  Settlement Agreement Reached with
                                                    release. Both individuals were ordered to
  Former Managing and Operating
                                                    pay a total of $240,187 in restitution and
  (M&O) Contractor at Savannah River
                                                    special assessment fees. The family member
  As previously reported, our investigation         was previously sentenced to 54 months
  determined that the Savannah River M&O            imprisonment and 3 years supervised
  contractor, the Washington Savannah               release.
  River Company, failed to administer a
  utility tire subcontract that resulted in a
                                                    $190,000 Recovery in Housing
  subcontractor supplying the Department
                                                    Allowance Investigation
  with inferior brand tires at inflated prices.
  During this period, Savannah River and            Two separate OIG investigations resulted
  the U.S. Attorney’s Office for the District of    in monetary recoveries totaling $190,000
  South Carolina entered into a settlement          from a Department subcontractor. The
  agreement with the former Savannah River          investigations determined that two
  M&O contractor which agreed to pay the            Department subcontractor employees
  Department $367,000.                              inappropriately received housing allowances
                                                    by falsely claiming permanent residence
                                                    outside of the state while living near
  Two Individuals Ordered to Pay
                                                    Livermore. The investigation remains
  Restitution and Sentenced for Theft
                                                    ongoing.
  of Department Property
  As previously reported, an investigation
  determined that an individual, while




           Department of Energy – Office of Inspector General
 30
Program Fraud Civil Remedies Act                 During this reporting period, the former
(PFCRA) Settlement                               subcontractor employee was sentenced
                                                 to 6 months home detention and 5 years
As previously reported, the Department’s         probation, ordered to pay restitution in
Office of General Counsel (OGC) filed a          the amount of $51,259 and a $100 special
complaint against York County Community          assessment fee and was debarred from doing
Action Corporation (York County), PA             work for the Government for 3 years.
under the PFCRA. The PFCRA action
was the result of an Investigative Report
                                                 Sandia Returns Monies to the
to Management issued to the OGC
                                                 Department
recommending the Department take
appropriate action to recover monies from        The OIG was notified that Sandia had
York County. The investigation determined        returned $48,061 to the Department
that York County submitted claims under          resulting from a joint investigation with the
the Weatherization Assistance for Low            U.S. Air Force (USAF) OIG that determined
Income Persons Program which they knew,          that a former Sandia employee had
or had reason to know were false, fictitious,    submitted fraudulent time and attendance
or fraudulent. During this reporting period,     records for payment. Specifically, while
OGC reached a settlement in the amount of        only working on USAF projects, the
$133,028 with York County.                       former Sandia employee had charged both
                                                 Sandia and USAF for the time. The former
                                                 employee repaid Sandia for the mischarged
Former NNSA Subcontractor
                                                 time; Sandia then returned the funds to the
Employee Sentenced For False
                                                 Department.
Statements
As previously reported, a former NNSA
                                                 Proceeds from Seized Vehicles
Savannah River subcontractor employee
                                                 Auction Returned to the Department
pled guilty in Federal District Court of South
Carolina to one count of False Statements.       As previously reported, an OIG investigation
The investigation determined the employee        determined that a former Los Alamos
made false statements to support his             subcontractor employee falsely requested
eligibility to receive long-term temporary       three checks payable to a fictitious entity
assignment benefits (per diem) while             totaling $55,000. The former subcontractor
working as a NNSA subcontractor employee         employee was able to personally pick up
on the Mixed Oxide Fuel Fabrication Facility     the checks, which were then deposited into
project. The false statements resulted in the    the former subcontractor employee’s credit
individual fraudulently receiving $87,646 in     union account. The former subcontractor
benefits he was not entitled to receive. The     employee pled guilty in U.S. District Court
individual resigned from his employment.         for the District of New Mexico to violations




                                       APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                             31
SEMIANNUAL REPORT TO CONGRESS


  of False Statements, False Claims, and Theft     Former Los Alamos Contractor
  of Government Property involving the             Employee Placed Into Pre-Prosecution
  embezzlement of funds from Los Alamos            Diversion Program
  and was sentenced to 4 months incarceration,
  3 years of supervised release, 4 months          We were notified that a former Los Alamos
  home confinement, $300 assessment, and           contractor employee was placed into the
  $35,489 in restitution. During this reporting    State of New Mexico’s Pre-Prosecution
  period, pursuant to a preliminary Order of       Diversion Program by the 1st Judicial
  Forfeiture issued by the U.S. District Court     District Attorney’s Office, Santa Fe, NM.
  for the District of New Mexico, 2 vehicles       The investigation determined that while
  were sold at auction for $8,400, of which the    employed at Los Alamos, the former
  Department will receive $2,403. The two          contractor employee submitted fraudulent
  vehicles were among several items purchased      documents and received $17,885 in
  with the stolen Department funds.                subsistence allowance he was not entitled
                                                   to receive. The former contractor employee
                                                   subsequently resigned from his position and
  Three Savannah River
                                                   has repaid $17,885 to the Department.
  Subcontractors’ Employment
  Terminated
                                                   Former Subcontractor Employees
  Two separate OIG investigations resulted
                                                   Placed Into Pre-Prosecution Diversion
  in three Savannah River Nuclear Solutions
                                                   Program
  (SRNS) subcontractors’ employment being
  terminated for making False Statements. In       The OIG was notified that four Los Alamos
  the first investigation, 2 employees admitted    subcontractor employees were placed into
  to the OIG that they conspired to make           the State of New Mexico’s Pre-Prosecution
  false statements in order to receive Long        Diversion Program by the 1st Judicial
  Term Temporary Assignment Benefits (per          District Attorney’s Office, Santa Fe.  This
  diem) totaling approximately $54,000. The        action resulted from an investigation that
  second investigation determined that an          determined that the 4 employees stole
  employee submitted fraudulent documents          approximately 5,253 pounds of specialized
  in order to receive per diem benefits totaling   copper wire and sold it for their own
  $22,561. When SRNS learned of the OIG’s          personal gain. The subcontractor employees
  investigation it initiated its own review,       were also required to pay restitution to the
  resulting in the employees’ termination.         Department totaling $11,469.
  These investigations are ongoing.




          Department of Energy – Office of Inspector General
 32
Former Employee of Department                  fine. They were also ordered not to obtain
Grantee Pled Guilty to Theft of                Government employment or Government
Government Property                            business for three years.

A joint OIG investigation with the Federal
                                               President of Department
Bureau of Investigation (FBI) determined
                                               Subcontractor Pleads Guilty to
that a former employee of a Department
                                               Making False Statements
grantee stole computer equipment valued
at $24,290 while employed at a university.     As a result of a joint investigation, the
The former employee pled guilty to 1           President of a former subcontractor at the
count of Theft of Government Property in       Department’s Nevada Site Office pled guilty
U.S. District Court, Dayton, OH and was        in U.S. District Court, Central District of
sentenced to 2 years probation, 100 hours      California, to two counts of making a false
community service, and was required to pay     statement.  The investigation determined that
a $100 special assessment fee and $12,614 in   $120,000 worth of computers purchased by
restitution to the Department. In response     the Department were not made in the United
to an Investigative Report to Management       States and were not laboratory certified, in
(IRM), the former employee and his             violation of a Department contract.  This is a
company were suspended and are pending         joint investigation with the Defense Criminal
debarment from doing business with the         Investigative Service, National Aeronautics
Federal Government.                            and Space Administration OIG, Air Force
                                               Office of Special Investigations, Naval
                                               Criminal Investigative Service and General
Former Department Manager
                                               Services Administration OIG.  Sentencing is
Sentenced in Conflict of Interest
                                               scheduled for January 2011.
Investigation
As previously reported, an OIG investigation
                                               Former Sandia Subcontractor
determined that a former mid-level
                                               Employee Sentenced for Possession
Department manager and her spouse pled
                                               of Child Pornography
guilty to Conflict of Interest and False
Statements. While employed with the            As previously reported, a former Sandia
Department, the former manager improperly      subcontractor employee was indicted and
directed Government furniture and other        pled guilty to one count of Possession of
contracts to companies affiliated with her     Child Pornography. The investigation
spouse. During this reporting period, they     determined the employee misused his
both were sentenced in the U.S. District       Government computer by viewing child
Court of Maryland to 36 months probation,      pornography images on a personal thumb
50 hours of community service and a $5,000     drive and used his Government computer to




                                      APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                            33
SEMIANNUAL REPORT TO CONGRESS


  communicate with a known child molester.         Former Los Alamos Contractor
  During this reporting period, the former         Employee Sentenced
  subcontractor employee was sentenced in
  the U. S. District Court of New Mexico to        As previously reported, a former contractor
  128 months incarceration, followed by a          employee pled guilty to one count of Theft
  life-time of supervised release. This was a      of Government Property for stealing two
  joint investigation with Immigrations and        ounces of radioactive gold from the Los
  Customs Enforcement, the FBI, and the New        Alamos plutonium processing facility.
  Mexico Internet Crimes Against Children          During this period, the former contractor
  Task Force.                                      employee was sentenced to 366 days
                                                   incarceration and 3 years supervised release
                                                   in U.S. District Court, Albuquerque, NM.
  Former Los Alamos Contractor
                                                   This was a joint investigation with the FBI.
  Employee Pled Guilty to Theft
  A former Los Alamos contractor
                                                   Administrative Action Taken Against
  employee pled guilty in U.S. District
                                                   Department Contractor Employee
  Court, Albuquerque, NM to one count
  of Theft of Government Property.  The            As a result of an OIG investigation, the
  investigation determined that the former         National Renewable Energy Laboratory
  employee falsified time sheets and was paid      took administrative action against one of its
  approximately $11,000 to which she was not       employees. The investigation determined
  entitled. A sentencing hearing is pending.       that the employee used Government time
                                                   and resources to perform consulting work
                                                   for a private company. The employee was
  Former Contractor Employee Pled
                                                   placed on a 30 day unpaid suspension,
  Guilty in Purchase Card Investigation
                                                   forfeited $16,256 in pay and benefits and
  A former Hanford site contractor employee        was informed not to participate in outside
  pled guilty in U.S. District Court for the       business activities for a period of 2 years.
  Eastern District of Washington to 15 counts      The investigation remains on-going.
  of Wire Fraud in connection with a purchase
  card fraud investigation. The investigation
                                                   Investigative Report to Management
  determined that the former contractor
                                                   Issued in Conflict of Interest
  employee, a purchase card holder, made 219
                                                   Investigation
  fraudulent Government funded purchase
  card transactions for personal items totaling    An IRM was issued to the Manager of the
  $564,326. This investigation remains open.       Berkeley Site Office that summarized the
                                                   results of an investigation into conflicts
                                                   of interest by senior employees at the




          Department of Energy – Office of Inspector General
 34
Lawrence Berkeley National Laboratory            investigation determined that the contractor
(Berkeley). The investigation determined         employee used his Department computer
that two senior Berkeley employees failed        and email address to buy and sell thousands
to disclose a conflict of interest relating to   of dollars worth of fraudulent iTunes gift
their outside financial interest in a private    card access codes, Rosetta Stone Software,
company during the period they had a             and pirated DVDs. During this reporting
supervisor/subordinate relationship at           period, the Department contractor employee
Berkeley. One of the employees also failed       was sentenced to 3 years probation. The
to obtain the necessary approval to engage       investigation was coordinated with
in outside employment.  The IRM made             Immigrations and Customs Enforcement,
four recommendations for corrective action       U.S. Secret Service, and the U.S. Attorney’s
which the Laboratory implemented.                Office for the District of Maryland.


Former National Energy Technology                Guilty Plea in Bonneville Power
Laboratory (NETL) Subcontractor                  Administration Check Fraud Scheme
Employee Sentenced
                                                 A private citizen, with no official affiliation
A former NETL subcontractor employee             to the Department, pled guilty in Benton
pled guilty and was sentenced to one year        County, WA, Superior Court to three
of probation for receiving stolen property       counts of Forgery. The investigation
in Allegheny County Court, Pittsburgh,           determined that in late April 2009, the
PA. The investigation, conducted with            civilian created and passed five fraudulent
the Allegheny County Police Department,          checks in Washington’s Tri-Cities area that
determined the employee attempted to sell a      contained Bonneville Power Administration
stolen NETL computer to an area pawn shop.       convenience checking account information.
This sentence is to be served concurrently
with a sentence of 18 months to 3 years
                                                 Report to Management Summarized
imprisonment and 5 years of probation on
                                                 Results of Allegations into Potential
other unrelated charges.
                                                 Irregularities in Loan Guarantee
                                                 Program
Department Contractor Employee
                                                 A report was issued to the Department
Sentenced for Criminal Copyright
                                                 summarizing the results of an investigation
Infringement
                                                 into an allegation that an engineering firm
As previously reported, a Department             was inappropriately influenced during its
contractor employee pled guilty to one           evaluation of a loan guarantee application.
count of criminal copyright infringement         We were unable to substantiate the
in the U.S. District Court of Maryland. The      allegation.




                                        APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                               35
SEMIANNUAL REPORT TO CONGRESS




                             THIS PAGE INTENTIONALLY LEFT BLANK




        Department of Energy – Office of Inspector General
 36
SEMIANNUAL REPORT TO CONGRESS




                      Positive Outcomes
                      Highlights Based on Office of Inspector
                      General Work

    During this reporting period, the               ➤➤   NNSA revised policies and
    Department took positive actions as a                internal controls to improve
    result of OIG work conducted during the              their performance in transferring
    current or previous periods. Consistent              warranty information between
    with our findings and recommendations:               project management and facilities
                                                         operations personnel. In addition,
       ➤➤   The State of Florida took corrective         contractors are now actively
            action to add the necessary award            pursuing warranty remedies for
            requirements in sub-recipient                faulty repairs. (OAS-M-10-02)
            documents and to correct the
            identified internal control             ➤➤   The State of Louisiana took
            weaknesses. The Department                   action to establish protocols
            also took steps to strengthen its            and a database with its general
            oversight of states’ Recovery Act            contractor to ensure there will be
            activities. (OAS-RA-10-12)                   no duplicate payments between the
                                                         state’s existing SEP and Recovery
       ➤➤   EM (1) determined the amount                 Act funds. Louisiana also began
            of Hanford contact-handled                   developing contingency plans to
            transuranic waste that is suitable           replace projects in the event that
            for processing at the AMWTP                  they do not receive timely National
            and ultimate disposal at the                 Environmental Policy Act approval.
            Waste Isolation Pilot Plant; and,            (OAS-RA-10-09)
            (2) fully analyzed the cost
            implications of processing Hanford’s    ➤➤   Los Alamos took positive steps
            contact-handled transuranic waste            to correct systemic weaknesses
            on-site, as opposed to processing it         in quality assurance.  During
            at the AMWTP. (OAS-RA-10-10)                 the course of our audit, Los
                                                         Alamos established a Quality
       ➤➤   ORP implemented a number of                  Implementation Council to,
            actions to strengthen corrective             among other things, “drive”
            action oversight of contractor               implementation of the Quality
            Integrated Safety Management.                Assurance Program throughout the
            (OAS-L-10-07)                                Laboratory.  (DOE/IG-0837)


                                        APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                          37
SEMIANNUAL REPORT TO CONGRESS


      ➤➤   One Department site updated its              ➤➤   Based on our report findings,
           precious metals policy to conform                 the Department recalculated the
           with Federal Regulations and reflect              Weatherization Assistance Program
           the required justifications and                   award allocations for the U.S. territories
           management approvals. Another                     and awarded additional funding as
           site suspended all disposal activities            appropriate. (OAS-RA-10-13)
           associated with contaminated
           precious metals in order to develop          ➤➤   As a result of our report, the
           a process that will address the                   Department implemented a number
           disposition of contaminated precious              of positive measures, including the
           metals. (OAS-L-10-10)                             development of a mentoring program
                                                             and monitoring reference manual, to
      ➤➤   The OCFO completed numerous                       enhance the effectiveness of the Energy
           training initiatives and conducted                Efficiency and Conservation Block
           an outreach campaign to ensure                    Grant Program. (OAS-RA-10-16)
           all relevant officials were trained
           in multiple areas. In addition,              ➤➤   Immediately following the release
           enhancements were made to the                     of our report, the Department’s
           Department’s quality assurance                    General Counsel issued a letter to
           process, including additional                     senior Department officials, providing
           comparisons between data elements.                guidance on Federal hiring and working
           (OAS-RA-10-06)                                    with contractors. (OAS-SR-10-04)

      ➤➤   Subsequent to our review,                    ➤➤   Management at the Livermore
           management indicated that                         Site Office concurred with our
           the Department was able to get                    recommendation to review the
           agreement from the State of Nevada                allowability of payments made
           to allow the Savannah River DU                    for undocumented and physical
           oxides to be disposed at the Nevada               fitness overtime. In a “Certificate
           National Security Site. As such, the              of Closure,” the Site Office Manager
           Department was canceling efforts to               indicated that the Contracting Officer
           store the waste on an interim basis at            determined that a total amount
           an off-site location and was preparing            of $581,194 (labor and associated
           the waste for shipment to Nevada                  burdens) was unallowable and that
           National Security Site for disposal.              the site contractor had agreed to repay
           (OAS-RA-10-07)                                    the Government. (INS-O-07-03)




           Department of Energy – Office of Inspector General
 38
➤➤   The Savannah River Operations                    designed to familiarize EERE staff
     Office, Acquisition Operations                   with the OIG’s mission. Additionally,
     Division, Contractor Industrial                  through the OIG Hotline, the OIG
     Relations Team, along with a Contract            has received an increased number
     Specialist from the Contracts                    of weatherization complaints
     Management Division, coordinated                 resulting from the influx of stimulus
     with our office to review records and            funds. In our capacity and through
     determine whether severance money                ongoing coordination with EERE
     totaling approximately $1.1 million              leadership, EERE has reviewed the
     should be identified as a disallowed             weatherization complaints and other
     cost and repaid to the Federal                   potential systemic matters that we
     government. (INS-O-10-02)                        have brought to its attention. We
                                                      understand EERE has utilized
➤➤   The ORNL established a Six Sigma                 the information to strengthen its
     Team to address the disposition and              operational oversight of EERE
     disposal of hard drives. The Team                Recovery Act programs.
     is currently working on a method
     to track hard drives when they are
     removed from computers, as well           Congressional Responses
     as employee awareness. Awareness
     bulletins have been issued and the        During this reporting period, the OIG
     site plans to continue this effort on a   provided information at the request of
     routine basis. (INS-O-10-03)              Congress in 66 instances and briefed
                                               congressional staff on 8 occasions.
➤➤   The enactment of the Recovery
     Act has afforded the OIG with yet
                                               Legislative and Regulatory
     another opportunity to collaborate
     with Department management in             Reviews
     the detection and prevention of
     fraud waste and abuse concerning          The Inspector General Act of 1978, as
     Recovery Act funds. No where              amended, requires the OIG to review and
     has that collaboration been more          comment upon legislation and regulations
     apparent than with EERE. Through          relating to Department programs and to
     our concerted efforts, the OIG and        make recommendations concerning the
     EERE have established a strong            impact of such legislation or regulations on
     working relationship which has            departmental economy and efficiency. The
     been evidenced by the OIG’s               OIG coordinated and reviewed 59 items
     participation in two webinars             during this reporting period.




                                      APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                              39
SEMIANNUAL REPORT TO CONGRESS


  Hotline System                                             allegations. However, management
                                                             instructed personnel to: (1) ensure
  The OIG operates a Hotline System to                       that safeguards in place are adequate
  facilitate the reporting of allegations                    to secure procurement sensitive
  involving the programs and activities under                information; and, (2) review policies
  the auspices of the Department. During this                related to procurement integrity and
  reporting period, the Hotline received 2,668               use of support services contractors
  contacts (calls, letters, emails, walk-ins, and            to ensure compliance with applicable
  Qui Tams), of which 1,137 were processed as                laws and regulations. In addition, a
  complaints. The OIG Hotline System can be                  Procurement Management Review
  reached by calling 1-800-541-1625 or 1-202-                was completed as a follow-up to
  586-4073.                                                  ensure compliance with a planned
                                                             final report date of mid-October 2010.

  Management Referral System                            ➤➤   Reportedly, a Los Alamos employee
                                                             was observed delivering guns to
  The OIG referred 174 complaints to                         buyers in the Laboratory’s parking lot
  Department management and other                            and taking money from individuals
  Government agencies during this                            interested in purchasing guns from
  reporting period and specifically requested                the employee during official duty
  Department management to respond                           hours. In response to an OIG referral
  concerning the actions taken on 59 of                      to Department management, the
  these complaints. Otherwise, Department                    Los Alamos’ Human Resources
  management was asked to respond only if it                 Labor Relations Group was tasked
  developed information or took action that it               to investigate the allegations. They
  believed should be reported. The following                 determined that the employee owns
  referrals demonstrate management’s use                     a gun business and is a licensed gun
  of OIG-provided information to promote                     dealer. When interviewed during
  positive change or to take decisive action:                the investigation, the employee
                                                             stated that he was familiar with Los
      ➤➤   A complaint raised allegations of                 Alamos’ policy prohibiting firearms
           potential procurement irregularities              on site. He also stated that he had
           at the Rocky Mountain Oilfield                    neither brought guns on site nor
           Testing Center. In response to the                did he accept them from customers.
           complaint, the Office of Fossil Energy            Although the employee was not
           initiated an “in-depth internal”                  found to have actively solicited
           review. Department management                     customers for his business on Los
           subsequently concluded that the facts             Alamos property, it was confirmed
           and circumstances disproved the                   that while onsite, the employee




           Department of Energy – Office of Inspector General
 40
     collects monies for amounts owed                 based on the results of the review a
     for gun-related transactions. As a               supervisor was suspended for one
     result of management’s review, the               week without pay and placed on
     employee was provided with an                    probation for one year. 
     Outside Activity Permission request
     and associated Laboratory policy on
     Outside Activities. The employee          Qui Tams
     was also instructed not to accept
     gun-related transaction monies from       Since 1996, the OIG has been instrumental
     customers on Los Alamos property.         in working with the Department of Justice
                                               in Qui Tam cases. The OIG is currently
➤➤   A number of weatherization-related        working on 15 Qui Tam lawsuits involving
     cases were referred to EERE, which        alleged fraud against the Government
     took appropriate actions to resolve       with potential liability in the amount of
     the complaints. For example, in           approximately $466,470,000. These cases
     response to a complaint concerning        are highly resource intensive, requiring the
     incomplete weatherization services        active participation of OIG investigative and
     performed on a residence in Ohio, the     audit assets. However, they have proven to
     EERE’s Office of Weatherization and       result in a high return on our investment of
     Intergovernmental Programs, working       resources.
     with the Project Management Center            To highlight our Qui Tam investigative
     staff at the Department’s Golden Field    work, an ongoing joint investigation with
     Office, took actions to ensure that all   various law enforcement agencies resulted
     approved weatherization work would        in 6 different companies entering into
     be completed and appropriate follow-      civil settlements totaling $194.2 million to
     up monitoring provided.                   resolve allegations of kickbacks and defective
                                               pricing.
➤➤   A complaint was received concerning
     an alleged work place violence
     incident at Savannah River which
     had allegedly been reported to
     management but no action taken. 
     Based on the OIG referral, the
     Savannah River Operations Office,
     in conjunction with the Office of
     Civil Rights, conducted a review of
     the incident and found that while
     the alleged work place violence
     incident was not as severe as reported,




                                     APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                             41
SEMIANNUAL REPORT TO CONGRESS




                             THIS PAGE INTENTIONALLY LEFT BLANK




        Department of Energy – Office of Inspector General
 42
SEMIANNUAL REPORT TO CONGRESS




                      Appendix 1 – Reports

                        Recovery Act Reports Issued
                           April 1, 2010 – September 30, 2010

     Report                                               Date                  Questioned
     Number                      Title                   Issued     Savings       Costs

                  Accounting and Reporting for
                  the American Recovery and
   OAS-RA-10-06                                          04-01-10
                  Reinvestment Act by the Department
                  of Energy’s Funding Recipients

                  Management Alert on
                  Environmental Management’s Select
   OAS-RA-10-07                                          04-09-10
                  Strategy for Disposition of Savannah
                  River Site Depleted Uranium Oxides

                  The Department of Energy’s
                  Program to Assist Federal Buyers in
   OAS-RA-10-08                                          04-27-10
                  the Purchasing of Energy Efficient
                  Products

                  Management Controls over the
                  Department of Energy’s American
   OAS-RA-10-09                                          05-03-10
                  Recovery and Reinvestment Act –
                  Louisiana State Energy Program

                  Waste Processing and Recovery Act
                  Acceleration Efforts for Contact-
   OAS-RA-10-10                                          05-25-10 $25,000,000
                  Handled Transuranic Waste at the
                  Hanford Site

                  Management Controls over the
                  Commonwealth of Virginia’s
   OAS-RA-10-11   Efforts to Implement the American      05-26-10
                  Recovery and Reinvestment Act
                  Weatherization Assistance Program

                  The Department of Energy’s
                  American Recovery and
   OAS-RA-10-12                                          06-07-10
                  Reinvestment Act – Florida State
                  Energy Program



                                         APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                         43
SEMIANNUAL REPORT TO CONGRESS



                              Recovery Act Reports Issued
                                April 1, 2010 – September 30, 2010

        Report                                                Date                Questioned
        Number                       Title                   Issued     Savings     Costs

                       The Department of Energy’s Use
                       of the Weatherization Assistance
      OAS-RA-10-13     Program Formula for Allocating        06-11-10
                       Funds under the American
                       Recovery and Reinvestment Act

                       Management Controls
                       over the Development and
                       Implementation of the Office of
      OAS-RA-10-14     Energy Efficiency and Renewable       07-22-10
                       Energy’s Performance and
                       Accountability for Grants in
                       Energy System

                       Review of the Department of
                       Energy’s Plan for Obligating
      OAS-RA-10-15                                           08-04-10
                       Remaining Recovery Act Contract
                       and Grant Funding

                       The Department of Energy’s
                       Implementation of the Energy
                       Efficiency and Conservation
      OAS-RA-10-16                                           08-11-10
                       Block Grant Program under the
                       Recovery and Reinvestment Act:
                       A Status Report

                       Status Report: The Department
                       of Energy’s State Energy Program
      OAS-RA-10-17     Formula Grants Awarded under          09-21-10
                       the American Recovery and
                       Reinvestment Act


                       Management Controls over the
                       Department of Energy’s American
      OAS-RA-10-18                                           09-29-10
                       Recovery and Reinvestment Act –
                       Michigan State Energy Program


                       The Department of Energy’s
      OAS-RA-L-10-01   Management of the NSLS-II             04-06-10
                       Project




            Department of Energy – Office of Inspector General
 44
                     Recovery Act Reports Issued
                        April 1, 2010 – September 30, 2010

   Report                                           Date                Questioned
   Number                      Title               Issued     Savings     Costs

                 Audit of Fermi National
OAS-RA-L-10-02   Accelerator Laboratory’s NOvA     04-16-10
                 Project


                 Moab Mill Tailings Cleanup
OAS-RA-L-10-03                                     04-23-10
                 Project


                 Progress in Implementing the
                 Advanced Batteries and Hybrid
OAS-RA-L-10-04   Components Program under          04-27-10
                 the American Recovery and
                 Reinvestment Act

                 Decommissioning and Demolition
OAS-RA-L-10-05   Activities at Office of Science   08-12-10
                 Sites

                 The Department of Energy’s
                 American Recovery and
OAS-RA-L-10-06                                     09-15-10
                 Reinvestment Act – Georgia
                 State Energy Program

                 Office of Science’s Energy
OAS-RA-L-10-09                                     08-27-10
                 Frontier Research Centers




                                    APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                     45
SEMIANNUAL REPORT TO CONGRESS



                              Other Audit Reports Issued
                                April 1, 2010 – September 30, 2010

        Report                                               Date                  Questioned
        Number                       Title                  Issued     Savings       Costs

                      The Department of Energy’s
                      Opportunity for Energy Savings
      IG-0835                                              07-01-10   $2,200,000
                      Through Improved Management
                      of Facility Lighting

                      The National Nuclear Security
                      Administration’s Management
      IG-0836         of the Product Realization           07-22-10
                      Integrated Digital Enterprise
                      Program

                      Nuclear Safety: Safety Basis and
      IG-0837         Quality Assurance at the Los         08-10-10
                      Alamos National Laboratory

                      Follow-up Audit on Retention and
      IG-0838         Management of the Department         09-03-10
                      of Energy’s Electronic Records

                      Environment and Worker Safety
                      Control Systems at the National
      IG-0839                                              09-20-10
                      Nuclear Security Administration’s
                      Kansas City Plant

                      The Department of Energy’s
      IG-0840         Audit Resolution and Follow-up       09-23-10
                      Process

                      The Department’s Information
      IG-0841         Technology Capital Planning and      09-30-10
                      Investment Control Activities

                      Management Controls over
                      Warranties Involving Newly
      OAS-M-10-02     Constructed and Renovated            06-15-10   $1,500,000
                      Facilities at National Defense
                      Laboratories

                      The Interim Treatment of Salt
      OAS-L-10-04                                          05-03-10
                      Waste at the Savannah River Site

                      The National Nuclear Security
      OAS-L-10-05     Administration’s Site Office         06-08-10
                      Training and Staffing


            Department of Energy – Office of Inspector General
 46
                      Other Audit Reports Issued
                        April 1, 2010 – September 30, 2010

  Report                                           Date                Questioned
  Number                     Title                Issued     Savings     Costs

               Former Uranium Enrichment
OAS-L-10-06    Workers: Questions Regarding       07-09-10
               Equity in Pension Benefits

               Integrated Safety Management at
OAS-L-10-07                                       07-21-10
               the Office of River Protection

               National Nuclear Security
               Administration’s Contracts for
OAS-L-10-08                                       08-23-10
               the Down-Blending of Highly
               Enriched Uranium

               Subcontract Auditing at Lawrence
OAS-L-10-09                                       09-30-10
               Livermore National Laboratory

               The Audit of Precious Metals
OAS-L-10-10    at National Nuclear Security       09-08-10
               Administration Sites

               Uranium Enrichment
               Decontamination and
OAS-FS-10-06                                      04-21-10
               Decommissioning Fund’s FY 2009
               Financial Statement Audit

               Need for Enhanced Surveillance
OAS-SR-10-01   During the Yucca Mountain          07-21-10
               Project Shut Down

               Resolution of Questioned,
               Unresolved and Potentially
OAS-SR-10-02   Unallowable Costs Incurred in      07-29-10
               Support of the Yucca Mountain
               Project

               Department’s Freedom of
OAS-SR-10-03                                      09-14-10
               Information Act Request Process

               Review of Allegations Regarding
               Hiring and Contracting in the
OAS-SR-10-04                                      09-22-10
               Office of Energy Efficiency and
               Renewable Energy




                                     APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                47
SEMIANNUAL REPORT TO CONGRESS



                              Other Audit Reports Issued
                               April 1, 2010 – September 30, 2010

      Report                                                       Date                Questioned
      Number                          Title                       Issued     Savings     Costs

                  Audit Coverage of Cost Allowability for
                  Lawrence Berkeley National Laboratory for the
   OAS-V-10-10    period June 1, 2005 thru September 30, 2008     04-20-10               $5,728,879
                  Under Department of Energy Contract
                  No. DE-AC02-05-CH11231

                  Audit Coverage of Cost Allowability
                  for Honeywell Federal Manufacturing &
   OAS-V-10-11    Technologies, LLC under Department of           05-19-10
                  Energy Contract No. DE-AC04-01AL66850
                  for FYs 2007 and 2008

                  Audit Coverage of Cost Allowability
                  for Midwest Research Institute under
   OAS-V-10-12    Department of Energy Contract                   06-10-10
                  No. DE-AC36-99GO10337
                  during FYs 2007 and 2008

                  Audit Coverage of Cost Allowability
                  for Battelle Energy Alliance, LLC under
   OAS-V-10-13                                                    06-17-10
                  Department of Energy Contract
                  No. DE-AC07-05ID14517 during FY 2008

                  Audit Coverage of Cost Allowability
                  for Bechtel BWXT Idaho, LLC under
   OAS-V-10-14    Department of Energy Contract                   06-21-10
                  No. DE-AC07-99ID13727 during
                  FYs 2007 – 2009

                  Audit Coverage of Cost Allowability for
                  Bechtel SAIC Company, LLC during FYs
   OAS-V-10-15                                                    07-29-10             $178,979,948
                  2004 through 2009 under Department of
                  Energy Contract No. DE-AC28-01RW12101

                  Audit Coverage of Cost Allowability for
                  Lawrence Livermore National Laboratory
   OAS-V-10-16                                                    08-24-10
                  during FY 2008 under Department of
                  Energy Contract No. DE-AC52-07NA27344

                  Audit Coverage of Cost Allowability
                  for Battelle Memorial Institute under
   OAS-V-10-17    Department of Energy Contract                   08-31-10                 $11,053
                  No. DE-AC05-76RL01830 during
                  FYs 2007 and 2008



         Department of Energy – Office of Inspector General
 48
                       Inspection Reports Issued
                       April 1, 2010 – September 30, 2010

  Report                                            Date                Questioned
  Number                    Title                  Issued     Savings     Costs

              Severance Repayments at the
INS-O-10-02                                        07-29-10              $1,100,000
              Savannah River Site

              Internal Controls over Computer
INS-O-10-03   Hard Drives at the Oak Ridge         08-16-10
              National Laboratory

              Review of Allegations Involving
              the National Nuclear Security
INS-L-10-02                                        07-28-10
              Administration’s National Security
              Vaults

              Review of Allegations of
INS-L-10-03   Retaliation at a Department Site     08-12-10
              (non-public report)

              Review of Alleged Procurement
              Irregularities Relating to the
S10IS007      Clean Coal Power Initiative          05-04-10
              Gilberton Coal-to-Clean Fuels
              and Power Project

              Review of Allegations of
S10IS013      Retaliation at a Department Site     09-29-10
              (non-public report)




                                    APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                      49
SEMIANNUAL REPORT TO CONGRESS




                             THIS PAGE INTENTIONALLY LEFT BLANK




        Department of Energy – Office of Inspector General
 50
SEMIANNUAL REPORT TO CONGRESS




                                  Appendix 2 – Tables

                OIG Issued Audit Reports with Recommendations
                            for Better Use of Funds
                                            April 1, 2010 – September 30, 2010
                                                      (Dollars in Thousands)
              The following table shows the total number of audit reports and the total dollar value of the
                          recommendations that funds be put to better use by management:

                                                     Total               One Time                 Recurring               Total
                                                    Number                Savings                  Savings               Savings

   A. Those issued before the
      reporting period for
                                                         3            $1,024,479,522                       $0          $1,024,479,522
      which no management
      decision has been made:*

   B. Those issued during the
                                                        45                 $28,700,000                     $0               $28,700,000
       reporting period:

         Subtotals (A + B)                              48             $1,053,179,522                      $0          $1,053,179,522

   C. Those for which a
      management decision
                                                        27               $456,500,000                      $0             $456,500,000
      was made during the
      reporting period:

         (i) Agreed to by management:                                        $2,900,000                    $0                $2,900,000

         (ii) Not agreed by management:                                  $453,600,000                      $0             $453,600,000

   D. Those for which a
      management decision is                            16                                $0               $0                            $0
      not required:

   E. Those for which no
       management decision has
                                                         5               $596,679,522                      $0             $596,679,522
       been made at the end of
       the reporting period:

   DEFINITION OF TERMS USED IN THE TABLE
   Funds put to better use: Funds that could be used more efficiently by implementing recommended actions.
   Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include unsupported costs.
   Management decision: Management’s evaluation of the finding and recommendations included in the audit report and the issuance of a final
   decision by management concerning its response.

 *The figures for dollar items include sums for which management decisions on the savings were deferred.




                                                              APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                                                                              51
SEMIANNUAL REPORT TO CONGRESS



                               OIG Issued Audit and Inspection Reports
                                        with Questioned Costs
                                                  April 1, 2010 – September 30, 2010
                                                                 (Dollars in Thousands)

                              The following table shows the total number of audit and inspection reports
                                   and the total dollar value of questioned and unsupported costs.

                                                                               Total                 Questioned                    Unsupported
                                                                              Number                   Costs                          Costs

       A. Those issued before the reporting
          period for which no management                                            0                  $55,526,814                            $123,000
          decision has been made:*

       B. Those issued during the reporting
                                                                                    5               $186,401,8801                                        $0
           period:

       Subtotals (A + B)                                                            5                $241,928,694                             $123,000

       C. Those for which a management
          decision was made during the                                              3                $200,341,494                                        $0
          reporting period:*

            (i) Value of disallowed costs:                                                            $16,197,8372                                       $0

            (ii) Value of costs not disallowed:                                                               $16,830                                    $0

       D. Those for which a management
          decision is not required:                                                 1                         $11,053                                    $0


       E. Those for which no management
           decision has been made at the end                                        1               $225,714,0273                             $123,000
           of the reporting period:

       DEFINITION OF TERMS USED IN THE TABLE
       Questioned costs: A cost that is (1) unnecessary; (2) unreasonable; (3) unsupported; (4) or an alleged violation of law, regulation, contract, etc.
       Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include unsupported costs.
       Management decision: Management’s evaluation of the finding and recommendations included in the audit and inspection report and the
       issuance of a final decision by management concerning its response.

  *The figures for dollar items include sums for which management decisions on the savings were deferred.
  1
      Includes 3 Audit Reports totaling $184,719,880; 2 Inspection Reports totaling $1,682,000
  2
      Audits-$15,615,837; Inspections - $582,000
  3
      Decisions affecting Audit Reports total $224,614,027; Inspection Report totals $1,100,000




                 Department of Energy – Office of Inspector General
 52
Reports Lacking Management                    Prior Significant
Decision                                      Recommendations Not
The Department has a system in place          Implemented
to track audit reports and management
decisions. Its purpose is to ensure that      As of September 2010, closure actions on
recommendations and corrective actions        recommendations in 34 OIG reports had
indicated by audit agencies and agreed to     not been fully implemented within 12
by management are addressed as efficiently    months from the date of report issuance.
and expeditiously as possible. Listed below   The OIG is committed to working with
are the audit reports over six months old     management to expeditiously address the
that were issued before the beginning of      management decision and corrective action
the reporting period and for which no         process, recognizing that certain initiatives
management decision had been made by the      will require long-term, sustained, and
end of the reporting period. The reason a     concerted efforts. The Department closed
management decision had not been made         96 recommendations in the past 6 months.
and the estimated date for obtaining a        Management updates the Departmental
management decision is described below.       Audit Report Tracking System on a quarterly
                                              basis, most recently in March 2010.
  Management Audit                            Information on the status of any report
                                              recommendation can be obtained through
  IG-0753: Recovery Costs for the
                                              the OIG’s Office of Audit Services and Office
  Proprietary Use of the Advanced Photon
                                              of Inspections and Special Inquiries.
  Source, January 11, 2007 – The OCFO is
  working with the Department to address
  a complex accounting issue raised by the
  report.  A final management decision is
  expected before December 31, 2010.

  IG-0831: The Office of Science’s
  Management of Information
  Technology Resources,
  November 20, 2009 - The finalization
  of the management decision is pending
  the resolution of complex issues and
  coordination with senior Departmental
  leadership.  This should occur by
  January 31, 2011.




                                     APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                         53
SEMIANNUAL REPORT TO CONGRESS



          Summary of Inspections and Special Inquiries Activities
                                              April 1, 2010 – September 30, 2010

      Inspections/Special Inquiries open as of April 1, 2010                                                                                          17

      Inspections/Special Inquiries opened during this reporting period                                                                                 4

      Inspections/Special Inquiries closed during this reporting period                                                                                 3

      Inspections/Special Inquiries open as of September 30, 2010                                                                                     18

      Reports issued (includes non-public reports)                                                                                                      6

      Report Recommendations:
          Issued this reporting period                                                                                                                  4
          Accepted by management this reporting period                                                                                                  4
          Implemented by management this reporting period                                                                                               3

      Complaints Referred to Department management/others                                                                                           174
      Referred to Department management requesting a response for OIG Evaluation                                                                     59


      HOTLINE ACTIVITY


      Hotline calls, emails, letters, and other complaints                                                                                       1,137

      Hotline complaints resolved immediately or redirected1                                                                                        807

            Total Hotline Complaints predicated                                                                                                     341

      Hotline calls, emails, letters, and other complaints predicated                                                                               341

      Unresolved Hotline predications from previous reporting period2                                                                                 42

            Total Hotline Complaints predicated                                                                                                     383

      Hotline predications transferred to the Management Referral System                                                                            241

      Hotline predications closed based upon preliminary OIG activity                                                                               122

      Hotline predications open at the end of the reporting period                                                                                    20

      	        Total Hotline predications                                                                                                           383
  1
   Includes complaints outside the purview of the Office of Inspector General; or the complainants were referred to the appropriate Federal, State,
  local, or private organization for assistance, if applicable. 
  This figure was reported as “40” for the reporting period ending March 31, 2010. Upon further review, this figure was revised to reflect the current total.
  2




              Department of Energy – Office of Inspector General
 54
                 Summary of Inspections and Special Inquiries
               Recovery Act Section 1553 Retaliation Complaints
                                           April 1, 2010 – September 30, 2010

  Recovery Act Retaliation Complaints received                                                      10

  Recovery Act Retaliation Investigations dismissed during the reporting period                      2

  Recovery Act Retaliation Complaints that received extensions                                       1

  Recovery Act Retaliation Complaints completed during the reporting period                         0*

*No complaints were required to be completed by the end of this reporting period




                                                               APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                                         55
SEMIANNUAL REPORT TO CONGRESS



                              Summary of Investigative Activities
                                          April 1, 2010 – September 30, 2010

      Cases open as of April 1, 2010                                                                                                 226

      Cases opened during period                                                                                                     89

      Cases closed during period                                                                                                     75

      Multi-Agency Task Force cases opened                                                                                           34

      Qui Tam investigations opened                                                                                                   3

          Total Open Qui Tam Investigations as of September 30, 2010                                                                 15

      Cases currently open as of September 30, 2010                                                                                  240

      IMPACT OF INVESTIGATIONS:

          Administrative discipline and other management actions                                                                     41

          Recommendations to management for positive change and                                                                      41
          other actions

          Suspensions/Debarments                                                                                                      8

          Accepted for prosecution*                                                                                                  22

          Indictments                                                                                                                33

          Criminal convictions                                                                                                        9

          Pretrial diversions                                                                                                         6

          Civil actions                                                                                                               9

      TOTAL DOLLAR IMPACT**                                                                                          $195,225,067
      (Fines, settlements, recoveries)

  *Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
  **Some of the money collected was the result of task force investigations.




              Department of Energy – Office of Inspector General
 56
                                                       Peer Reviews
                                         April 1, 2010 – September 30, 2010

               Results of Reviews Conducted by DOE/OIG: OFFICE OF AUDIT SERVICES

      Date of
    Recent Peer                      Reviewed OIG                                 Outstanding Recommendations
      Review

     2/26/2010                 Department of Justice                             No outstanding recommendations



              Results of Reviews Conducted by DOE/OIG: OFFICE OF INVESTIGATIONS

      Date of
    Recent Peer                        Reviewed OIG                                 Outstanding Recommendations
      Review

     2/29/2008                   Department of Interior                            No outstanding recommendations

There are no outstanding recommendations from any previous peer reviews.
No Peer Reviews were in progress or completed by DOE/OIG during this reporting period.



             Results of Reviews Conducted by Other OIGs: OFFICE OF AUDIT SERVICES

     Date of                                               Requirements
                                                                                            Outstanding Recommendations/
   Recent Peer               Reviewing OIG                  For Review
                                                                                                         Link
     Review                                                 Frequency


                                                                                         No outstanding recommendations
                             Social Security                At least once
   3/05/2010
                             Administration                 every 3 years                www.ig.energy.gov/documents/
                                                                                         DOE_Peer_Review_Ltr-Audit.pdf



             Results of Reviews Conducted by Other OIGs: OFFICE OF INVESTIGATIONS

     Date of                                                    Requirements
                                                                                                     Outstanding
   Recent Peer                 Reviewing OIG                     For Review
                                                                                                 Recommendations/Link
     Review                                                      Frequency

                                                                                              No outstanding recommendations
                            Small Business                       At least once
   9/15/2008
                            Administration                       every 3 years                www.ig.energy.gov/documents/
                                                                                              DOE_Peer_Review-2008_INV.pdf

No Peer Reviews were in progress or completed by other OIGs during this reporting period.




                                                          APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                                                               57
SEMIANNUAL REPORT TO CONGRESS




                             THIS PAGE INTENTIONALLY LEFT BLANK




        Department of Energy – Office of Inspector General
 58
SEMIANNUAL REPORT TO CONGRESS




    Feedback Sheet
    The contents of the September 2010 Semiannual Report to Congress comply
    with the requirements of the Inspector General Act of 1978, as amended. If
    you have any suggestions for making the report more responsive, please
    complete this feedback sheet and return it to:

    United States Department of Energy
    Office of Inspector (IG-10)
    1000 Independence Avenue, SW
    Washington, D.C. 20585

    ATTN: Douglas Gillam




    Name:_________________________________________________________________


    Daytime Telephone Number:___________________________________


    Comments/Suggestions/Feedback:




    For media inquiries, please dial (202) 253-2162 for assistance.




                                   APRIL 1, 2010 – SEPTEMBER 30, 2010
                                                                                 59
SEMIANNUAL REPORT TO CONGRESS




                             THIS PAGE INTENTIONALLY LEFT BLANK




        Department of Energy – Office of Inspector General
 60
      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL


                       HOTLINE
   Call the HOTLINE if you suspect Fraud, Waste,
  Abuse, or Mismanagement by a DOE Employee,
            Contractor, or Grant Recipient




          Call 1-800-541-1625 or (202) 586-4073

Additional information on the OIG and reports can be found at
                  www.ig.energy.gov



                  U.S. Department of Energy
                1000 Independence Ave., S. W.
                   Washington, DC 20585
SEMIANNUAL REPORT TO CONGRESS




                             THIS PAGE INTENTIONALLY LEFT BLANK




        Department of Energy – Office of Inspector General
 62
DEPARTMENT OF ENERGY, OFFICE OF INSPECTOR GENERAL
